No. ___________
IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020
ALBERTO JULIO GARCIA,
Petitioner,
vs.
STATE OF MISSISSIPPI,
Respondent
THIS IS A CAPITAL [DEATH PENALTY] CASE
PETITION FOR WRIT OF CERTIORARI
to the Mississippi Supreme Court

André de Gruy*
Alison Steiner
Office of the State Public Defender
Capital Defense Counsel Division
239 N. Lamar Street, Suite 601
Jackson, MS 39201
601-576-2315 (direct line)
adegr@ospd.ms.gov
Counsel for Petitioner
*Counsel of Record

QUESTION PRESENTED
Does Mississippi’s “presumption of competency” violate the Fourteenth
Amendment, and/or the Eighth Amendment, when that presumption is expanded to
allow trial courts to conduct dispositive pretrial proceedings determining matters
later relied upon to sentence that defendant to death when the only expert
testimony established that the defendant was Dusky incompetent with respect to
participating in any of those pretrial proceedings, and was undergoing as yet
incomplete court ordered restorative treatment during some of them?

i

LIST OF PARTIES AND RELATED CASES
1. The names of all parties appear in the caption of the case on the cover page.
2. Cases in other courts that are related to the case in this Court (proceedings
directly on review in the present Petition are in boldface):
State of Mississippi v. Alberto Julio Garcia, No. B2401-2015-500, Circuit
Court of Harrison County, Mississippi, First Judicial District, Sentencing
Judgment entered January 25, 2017, Order denying post-trial Motions
entered April 11, 2017.
Alberto Julio Garcia v. State of Mississippi, No. 2017-DP-504-SCT,
Mississippi Supreme Court, Decision (affirmance) entered May 14, 2020;
Rehearing denied September 10, 2020
Alberto Julio Garcia v. State of Mississippi, 2017-DR-00420-SCT, Mississippi
Supreme Court (PCR proceeding on conviction) no final judgment entered as of the
date of this list of related cases.
Alberto Julio Garcia v. State of Mississippi, No. A2401-2018-00015, Circuit Court of
Harrison County, Mississippi, First Judicial District (PCR proceeding on conviction)
no final judgment entered as of the date of this list of related cases.
Alberto Julio Garcia v. State of Mississippi, No. 2018-M-01353-SCT, Mississippi
Supreme Court, Order denying Petition for Interlocutory Appeal from No. A24012018-00015 (PCR proceeding on conviction) entered 11/18/2018.
Alberto Garcia v. State of Mississippi, No. 2020-M-01158-SCT, Mississippi Supreme
Court, Order granting in part and denying in part Petition for Interlocutory Appeal
from No. A2401-2018-00015 (PCR proceeding on conviction) and other relief entered
10/22/2020.

ii

TABLE OF CONTENTS
QUESTION PRESENTED ................................................................................................... i
LIST OF PARTIES AND RELATED CASES .................................................................... ii
TABLE OF CONTENTS ..................................................................................................... iii
TABLE OF AUTHORITIES ................................................................................................ v
OPINION BELOW ............................................................................................................... 1
JURISDICTION ................................................................................................................... 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ........................... 2
STATEMENT OF THE CASE............................................................................................. 2
A.

Relevant proceedings below ................................................................................ 2

B.

Other relevant facts ............................................................................................. 5

REASONS FOR GRANTING THE WRIT........................................................................ 12
This Court should grant the writ sought in order to preserve its
longstanding protections of the Fourteenth Amendment’s “prohibition
fundamental to an adversary system of justice” against proceeding in any
fashion against incompetent defendants, and of the Eighth Amendment’s
protection against cruel and unusual punishments. ............................................ 12
A. Mississippi’s use of its presumption of competency to allow proceedings against
an actually incompetent defendant represents a substantial, and unconstitutional,
departure from the minimum requirements of this Court protecting such persons. 12
B. Where the proceedings are in aid of imposition of a death sentence, Mississippi
violates the Eighth Amendment by using a presumption of competency that ignores
and rejects the well-established objective psychological and psychiatric methods
that have long been relied upon to establish whether a criminal accused is
competent to be proceeded against and instead permits reliance upon subjective and
inaccurate non-scientific stereotypes of what is and is not a mental illness. ........... 20
CONCLUSION ................................................................................................................... 25

iii

INDEX TO APPENDICES ................................................................................................ 26
APPENDIX A: Supreme Court of Mississippi Opinion, May 14, 2020, reported at
Garcia v. State, 300 So.3d 945 (Miss. 2020).
APPENDIX B: Unpublished order denying rehearing dated September 10, 2020.
APPENDIX C: Unpublished mandate issued September 17, 2020.
APPENDIX D: Competency Hearing Exhibit D-1, November 17, 2016 Report of
court appointed forensic psychologist Robert Storer, Ph.D.
APPENDIX E: Transcript of Competency hearing of November 22, 2016, T. 371411.

iv

TABLE OF AUTHORITIES
Cases
Arizona v. Fulminante, 499 U.S. 279 (1991), ..................................................................... 13
Atkins v. Virginia, 536 U.S. 304 (2002) ................................................................................. 21
Beasley v. State, 136 So.3d 393 (Miss. 2014) ...................................................................... 17
Brumfield v. Cain, 576 U.S. 305 (2015) ............................................................................... 21
Coleman v. State, 127 So.3d 161 (Miss. 2013) .............................................................. 11, 17
Cooper v. Oklahoma, 517 U.S. 348 (1996) ........................................................................... 16
Crawford v. State, 787 So. 2d 1236 (Miss. 2001) ................................................................. 6
Drope v. Missouri, 420 U.S. 162 (1975) ........................................................................ passim
Dusky v. United States, 362 U.S. 402 (1960) ........................................................ 6, 12, 16, 20
Enmund v. Florida, 458 U.S. 782 (1982)............................................................................. 10
Evans v. State, 226 So. 3d 1 (Miss. 2017), reh'g denied (Sept. 28, 2017), cert. denied
sub nom. Jordan v. Mississippi, 138 S. Ct. 2567 (2018) ........................................ 11, 18
Flowers v. Mississippi, --- U.S. ---, 139 S. Ct. 2228 (2019) ................................................ 6
Garcia v. State, 300 So.3d 945 (Miss. 2020)............................................................................ 1
Gregg v. Georgia, 428 U.S. 153 (1976) ................................................................................. 20
Groppi v. Wisconsin, 400 U.S. 505 (1971) ............................................................................. 13
Hall v. Florida, 572 U.S. 701 (2014) .................................................................. 20, 21, 22, 23
Hollie v. State, 174 So. 3d 824 (Miss. 2015) .................................................................. 11, 17
Jay v. State, 25 So.3d 257 (Miss. 2009) ............................................................................... 17
Medina v. California, 505 U.S. 437 (1992).......................................................................... 16
Moore v. Texas, --- U.S. ---, 137 S. Ct. 1039 (2017) ...................................................... 21, 22
Pate v. Robinson, 383 U.S. 375 (1966) ..................................................................... 12, 13, 23
Pitchford v. State, 240 So. 3d 1061 (Miss. 2017) ............................................. 11, 17, 18, 20
Sanders v. State, 9 So. 3d 1132 (Miss. 2009) ...................................................................... 17
Smith v. State, 149 So. 3d 1027 (Miss. 2014) ............................................................... 11, 17
Weaver v. Massachusetts, --- U.S. ---, 137 S. Ct. 1899 (2017).......................................... 13
Statutes, Constitutions, & Rules
28 U.S.C. § 1257........................................................................................................................... 1
Miss. Code Ann. § 97-3-19 (2) ................................................................................................ 2, 3
Miss. Code Ann. § 97-3-21 (3) .................................................................................................. 3
Miss. Code Ann. § 97-3-95 ........................................................................................................ 2
Miss. Code Ann. § 99-19-101 .................................................................................................. 10
Miss. R. Crim. P. 12 ........................................................................................................... 17, 23
Miss. Unif. Cir & Cty. Ct. Rule 9.06 (superceded effective July 1, 2017 by Miss. R. Cr.
P. 12) ........................................................................................................................................ 17
U.S Constitution, Amendment VIII ............................................................................ 2, 13, 20
U.S. Constitution, Amendment XIV .................................................................................. 2, 13

v

Other Authorities
Allen J. Beck, U.S. Dep’t of Justice, “Use of Restrictive Housing in U.S. Prisons and
Jails, 2011-12,” NCJ 249209 (2015) available at
https://www.bjs.gov/content/pub/pdf/urhuspj1112.pdf ................................................. 14
Council of State Governments Justice Center, “Addressing Mental Illness in the
Criminal Justice System” (2009), available at
https://www.justice.gov/archives/opa/blog/addressing-mental-illness-criminaljustice-system. ........................................................................................................................ 14
Doris J. James and Lauren E. Glaze, U.S. Dep’t. of Justice, “Mental Health Problems
of Prison and Jail Inmates,” NCJ 213600 (2006) available at
https://www.bjs.gov/content/pub/pdf /mhppji.pdf .......................................................... 14
Fowler, Sarah, “Suspect in deadly shooting of Simpson County deputy apprehended,”
The Clarion-Ledger, June 12, 2020, available at
https://www.clarionledger.com/story/news/2020/06/12/simpson-co-deputy-killedsuspect-considered-armed-and-dangerous/3179221001/. ............................................... 15
Fred Osher, M.D., David A. D’Amora, MS, Martha Plotkin, J.D., Nicole Jarrett, Ph.D.,
Alexa Eggleston, J.D., The Council of State Governments Justice Center, “Adults
with Behavioral Health Needs under Correctional Supervision: A Shared
Framework for Reducing Recidivism and Promoting Recovery” (2012), 4, available
at
https://bja.ojp.gov/sites/g/files/xyckuh186/files/Publications/CSG_Behavioral_Frame
work.pdf................................................................................................................................... 14
Pettus, Emily Wagster, The Associated Press, “Doctor calls Parchman conditions
‘deplorable’,” June 21, 2020, https://apnews.com/eff3da4a355d62fcf71a292aac2329df
................................................................................................................................................... 15
Steadman, Henry J., Fred C. Osher, Pamela Clark Robbins, Brian Case, and Steven
Samuels, “Prevalence of Serious Mental Illness Among Jail Inmates,” Psychiatric
Services 60, no. 6 (June 2009): 761–765) .......................................................................... 14

vi

PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF THE STATE OF MISSISSIPPI
The Petitioner, Alberto Julio Garcia, prays for a writ of certiorari to review the
judgment of the Supreme Court of Mississippi affirming, on direct appeal, the
sentence of death imposed upon his conviction for Capital Murder.
OPINION BELOW
The opinion of the Mississippi Supreme Court (Pet. App. A) is reported at
Garcia v. State, 300 So.3d 945 (Miss. 2020). That Court’s order denying rehearing on
September 10, 2020 (Pet. App. B) is unpublished, as is the mandate issued September
17, 2020. (Pet. App. C). 1
JURISDICTION
The judgment of the Supreme Court of Mississippi was entered on May 14,
2020, and rehearing was denied on September 10, 2020. This Petition is filed within
150 days of the latter event pursuant to this Court’s COVID-19 related Order of
March 19, 2020. The jurisdiction of the Supreme Court is invoked under 28 U.S.C. §
1257 on the ground that a right or privilege of the defendant which is claimed under
the Constitution of the United States has been denied by the State of Mississippi.

1 The

opinion below is attached as Appendix A to this Petition. All citations to that opinion
will be to “Pet. App. A” by paragraph. Other appendices to this Petition will be cited as “Pet.
App. [letter]” by page. Citations to the Record on Appeal below that are not reproduced in
full in an appendix, are to the Clerk’s Papers and Trial Transcript as “C.P.” and “T.”
respectively, by page number, and to Exhibits by Exhibit number.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Eighth Amendment to the Constitution of the United States, which provides that:
Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.
The Fourteenth Amendment to the Constitution of the United States, which provides
in pertinent part that:
No state shall … deprive any person of life, liberty, or property, without
due process of law . . . .
STATEMENT OF THE CASE
A. Relevant proceedings below
On the evening of July 16, 2014 five-year-old Janaya Thompson (hereafter
J.T.) went missing from her home in a Gulfport apartment complex. The next day,
after police had been brought in, J.T. was found dead in an abandoned trailer near
the apartments, hanging by her neck and bearing signs of sexual penetration. A few
hours later, Petitioner Alberto Julio Garcia (hereafter “Garcia”), a neighbor of J.T.
and her family, was interviewed by police investigating another suspect in that
crime. Garcia was arrested at the conclusion of that interview, and never left
custody again. T. 8, 13, 17-18. A little over a year later a Harrison County grand
jury returned a single count indictment under Miss. Code Ann. § 97-3-19 (2)(e)
charging Garcia with the felony capital murder of J.T. “while in the commission of
the crime and felony of Sexual Battery, as defined by Section 97-3-95, Miss. Code of
1972 (as amended),” C.P. 13. The State immediately announced its intent to seek a

2

death sentence in the event of conviction. C.P. 13, T. 40. 2
After pleading guilty to that indictment 3, and waiving a sentencing jury, C.P.
447-48, 450-53. T. 517-37, 538-77, 4 Garcia was subjected to a three day long
sentencing bench trial. T. 578-896. The denial of Garcia’s change of venue motion
that undoubtedly contributed to the decision to have a bench sentencing trial, as
well as the admissibility of some of the most damaging evidence relied upon by the
tribunal in sentencing had already been determined during dispositive pretrial
hearings held between March and August of 2016. T. 46-249, though undisputed
evidence later established the Garcia had been Dusky incompetent to participate in
his defense at least during the open-court aspects of those hearings. Pet. App. D
(Competency Hearing Exhibit D-1, November 17, 2016 Report of court appointed

See Miss. Code Ann. § 97-3-21 (3) (making capital murder as defined by § 97-3-19 (2)
punishable by death). The formal announcement at Garcia’s arraignment that the death
penalty would be sought was simply confirmation of a prosecuting attorney’s press
statement nearly a year earlier at the time of Garcia’s preliminary hearing that Garcia “is
just pure evil” and that “I think the only proper penalty in a case like this would be the
death sentence.” C.P. 190.
2

The guilty plea and judgment of conviction pursuant to which that trial proceeded are not
at issue in the present Petition. They are under challenge in the separate ongoing, but as
yet unresolved, post-conviction review proceedings identified in the List of Parties and
Related Cases, supra, at ii.

3

The waiver of jury sentencing was made in the context of having been denied a change of
venue notwithstanding the extreme and virulent public outrage at the crime and very
personal hostility towards Garcia that had manifested itself from the moment of his arrest
and had persisted thereafter. C.P. 132-241 (Motion for Change of Venue and attached
exhibits). That outrage had not only been fanned by public officials’ statements, see, e.g., n.
2, supra, C.P. 158, 167,190, but actually grew more so as time passed, culminating in a
petition signed by over 100 people filed with the Circuit Clerk on the first day of his
sentencing trial (a date that had previously been publicized) demanding that the court
enter a death sentence for Garcia. T. 669-71, Sealed Exhibit Vol. 2 of 9.

4

3

forensic psychologist Robert Storer, Ph.D.) (hereafter “Storer Report”); Pet. App. E
(Transcript of Competency hearing of November 22, 2016, T. 371-411) (hereafter
“Competency Hearing Transcript.”)
The evidence admitted as a result of the pretrial hearings, and relied upon by
the trial judge in sentencing Garcia to death, included the results of an electronic
search of a video game device owned by Garcia but to which the alternate suspect
also had access, on which someone had made internet searches for pedophiliac
pornography, T. 717-28, Trial Exhibits S-45, S-46, S-47, as well as incriminating –
but purportedly inconsistent with the other evidence and/or Garcia’s plea colloquy –
statements made by Garcia under police interrogation, T. 660-65, Trial Exhibits S39, S-40 (Statement to police officer transporting him to interrogation), 671-78,
Trial Exhibits S-40 and S-41 (statement to Detective who conducted the
interrogation). After a less than two hour deliberation conducted over her lunch
hour, T. 883, and in explicit reliance on the electronic evidence and on negative
inferences regarding Garcia’s character, credibility and acceptance of responsibility
drawn from the inconsistent statements, the Judge sentenced Garcia to death. T.
883-894, C.P. 463-67.
On Garcia’s timely appeal of that sentence, the Mississippi Supreme Court
affirmed, and explicitly adopted the view of the “presumption of competency” that is
challenged in this Petition. Pet. App. A at ¶¶ 55-66. On September 10, 2020 it
denied Garcia’s timely motion for rehearing on that decision. Pet. App. B. The
instant Petition for Writ of Certiorari to the Mississippi Supreme Court on the

4

question decided below is timely filed in the manner prescribed by the applicable
Rules of this Court as modified by this Court’s orders entered “[i]n light of the ongoing
public health concerns relating to COVID-19”

5

B. Other relevant facts
From the beginning, Garcia’s competency to proceed was an issue. At his
arraignment in late 2015, the trial judge recognized that Garcia had a significant
history of mental illness and appointed clinical and forensic psychologist Dr. Robert
Storer to evaluate Garcia for competency based on that history. T. 29-45. Dr. Storer
conducted a months-long evaluation of Garcia that included multiple interviews
with Garcia and collateral sources, and review of Garcia’s childhood medical and
psychiatric records. See Storer Report at pp. 1-2, Competency Hearing Transcript at
T. 377-78. On the basis of this evaluation, Dr. Storer submitted his report
diagnosing Garcia with a then-untreated severe anxiety disorder, due to which,
Garcia “has significant deficits in his ability to attend to court proceedings and
participate in his own defense” and concluding that under the criteria of Dusky as
adopted by the Mississippi courts Garcia was, as a result of these in-courtroom
deficits alone, “not competent to stand trial at this time.” Storer Report, at p. 1
(employing the Dusky rule adopted in Crawford v. State, 787 So. 2d 1236, 1241

This Court’s March 19, 2020 Order modified Supreme Court Rule 13.1 by extending the
deadline to file any petition for writ of certiorari “to 150 days from the date of the…order
denying a timely petition for rehearing” in the lower court. On April 15, 2020 this Court
entered an additional order, modifying of some of the formatting and service requirements of
Supreme Court Rules 33.2, 33.1, and 29.3) for “every document filed in a case prior to a ruling
on a petition for writ of certiorari.”

5

5

(Miss. 2001) (citing Dusky v. United States, 362 U.S. 402, 402 (1960))). Dr. Storer also
reported that the anxiety disorder that was rendering Garcia incompetent was
likely susceptible to treatment and recommended that “Mr. Garcia be treated at the
jail for his anxiety symptoms and be re-evaluated for competence after his
symptoms have been effectively treated.” Id. at p. 3.

6

Within five days, the trial court convened a hearing on Garcia’s competency.
Dr. Storer was the sole witness and was accepted by the trial court as an expert in
forensic psychology. Competency Hearing Transcript at T. 376. His report was
admitted into evidence in support of that testimony. Id. at T. 373-74, 410. Dr. Storer
reiterated the findings from his report, his expert psychological opinion that Garcia
was then suffering, and had since childhood suffered, from the serious mental
illness anxiety disorder, and that Garcia’s anxiety disorder had gone untreated from
and after his arrest in July 2014. Id. at T. 373, 381-82, 386-89, 393. As a result, at
all times since his arrest,
Dr. Storer was separately concerned that the anxiety disorder “also may be impairing his
ability to make rational decisions in his legal situation” outside of the courtroom setting,
Storer Report at p. 3. But, as he made clear during his testimony, his expert opinion that
Garcia was actually so impaired by the anxiety disorder that he was incompetent with
respect to in-court proceedings did not rest on, and was not contradicted by, that more
speculative concern. Rather, as he explained to the court, his opinion that Garcia’s capacity
to participate inside the courtroom setting was substantially impaired by Garcia’s untreated
anxiety disorder even if he did not have other limitations. Competency Hearing Transcript
at T. 393. To the extent that the Mississippi Supreme Court found this second unrelated
aspect of Garcia’s competency to be evidence contradicting the first one, it is clearly
erroneous, and insufficient, absent the presumption of competency, to support the
Mississippi Supreme Court’s ruling under question here. Pet. App. A at ¶¶ 63-66. This
Court does not hesitate to set aside unconstitutional actions below where they are based on
clearly erroneous findings in either the trial or appellate courts, or to defer to the trial court
in making such findings. See, e.g., Flowers v. Mississippi, --- U.S. ---, ---, 139 S. Ct. 2228,
2244 (2019)

6

6

Mr. Garcia’s ability to participate in legal proceeding, to attend to
what’s going on, and to actually consult and work with defense counsel
over the course of a trial is significantly impaired by his anxiety.
Id. at T. 373.
The severe mental illness that caused these problems, Dr. Storer testified,
was not the product of current circumstances, but had existed in Garcia since
childhood, and had affected him throughout his life, including during previous
pretrial hearings in the instant matter, Id. at T. 378-79, 385-86. Dr. Storer
specifically cited an attack during a July pretrial hearing regarding change of venue
as an open manifestation of this mental illness. Id. at T. 380-81, 386-91, 393-94. Dr.
Storer testified that his opinions were further based upon review of Garcia’s
psychiatric records going back to childhood and interviews with people who had
known him since childhood and since his incarceration, Id. at T. 377-78, 385-86,
Garcia’s behavioral and medical records while incarcerated, Id. at T. 381, 387-88,
and twelve hours of face to face interviews with the defendant held between July 12
and Nov. 22, 2016. Id. at T. 377.
It was therefore Dr. Storer’s opinion that Garcia was then, and had since his
arrest been, mentally incompetent to participate in legal proceedings due an
untreated severe anxiety disorder. Id. at T. 371, 378-81, 386, 390-92. It was also Dr.
Storer’s opinion that the incompetency would persist unless and until adequate
treatment was undertaken. Id. at T. 380-82, 385-87, 390-91. Dr. Storer estimated
that it would take at least 30 days of closely controlled and monitored treatment
with anti-anxiety medications to determine if Garcia could in fact be successfully be

7

restored to competency to participate in court proceedings. Id. at T. 383-84, 387,
404-05. The State offered no evidence to rebut any of this testimony or any crossexamination that challenged any of Dr. Storer’s expert opinions with respect to
either Garcia’s diagnosis or the competency-impairing effect it had at present, and
had had since his arrest, on his abilities to participate in in-court proceedings. Id. at
T. 384-87.
And, although he was subjected to a hostile and challenging examination by
the trial judge, Id. at T. 387-94, Dr. Storer never retreated from his testimony that,
to a reasonable degree of psychological certainty, Mr. Garcia’s severe and untreated
anxiety disorder was a mental illness that had at all times since his arrest rendered
Mr. Garcia incapable of competently participating in open court proceedings, even
though he was less certain that the condition would affect his capacities in other
settings. Id. at T. 392-93 (“I do know for certain that his ability to attend and
participate is being impaired”).
The expert testified this was because, during proceedings in open court, his
anxiety disorder “shuts him down to where he’s not paying attention and listening
and processing information, and he’s not able to ask questions of his attorneys as
appropriate or point things out.” Id. at T. 390. When pressed by the trial judge to
explain why an anxiety disorder would have this effect, Dr. Storer explained, again
without refutation from any source, that people with severe anxiety disorder who
are in stressful circumstances like in-court proceedings
focus all of their attentional resources either inwardly on themselves to
try and sort out what’s going on or in a hypervigilant way looking for

8

threats. Anything that’s not a threat is dismissed. And so you end up
with someone sitting there who is paying attention to what’s going on
inside and hypervigilant for threats, but not paying attention to what’s
being said, not thinking conceptually, not thinking about evidence
that’s been presented.
Id. at T. 391. The trial judge followed her interrogation of Dr. Storer with one of
Garcia, who confirmed that he had long suffered from all of these things, that they
had affected him in the courtroom during the pretrial hearings, and that he had
been able to follow what had gone on in the present hearing because he had
received a large dose of medication immediately before the hearing, and there were
very few people present, unlike at other proceedings. Id. at T. 395-404.
On the basis of the testimony of the expert and the colloquy with Garcia, the
trial judge ruled that Garcia was competent “but for” the issue of his capacities to
attend and participate during in-trial proceedings, which she agreed caused her to
question “if we were to go to trial, how he would handle that in the courtroom,”
noting that it had manifested itself in earlier proceedings, Id. at T. 404. On that
basis, the judge expressly reserved ruling on Garcia’s competency to participate in
in-court proceedings until the recommended restorative treatment was effectively
completed and directed that it be undertaken. Id. at T. 405. It was not until
January 12, 2017, after a second competency hearing at which the expert testified
that the restorative treatment had worked that the trial court adjudicated that
Garcia was competent. T. 512-13, C.P. 438, 441.
Nonetheless, the trial court did not upset any of the results of hearings held
while Garcia was in the state of incompetency testified to by the expert. This

9

included the July 26, 2016 evidentiary hearing at which Garcia’s statements to
police – used at the sentencing to find Garcia dishonest and unrepentant in his plea
colloquy, and his mitigation evidence to be of little weight as a consequence, T. 883894, C.P. 463-67 – were found to be admissible, T. 195-240. 7 The validity of the
search warrant that recovered the Xbox with the damaging evidence concerning
searches for pedophiliac pornography was also established at that hearing, T. 24261. Equally significant to the sentencing trial, and most particularly to the decision
to waive a jury at sentencing, were the hearings on Garcia’s motion to change
venue. The hearing on that motion commenced on July 26 as well, T. 262-301, and
was finally denied after further evidentiary hearing on August 16, 2016, T. 303-47,
C.P. 342-48.
Nor, even after the it had ordered restorative treatment, did the trial court
wait for that treatment to have the hoped-for restorative effect before holding
further in-court proceedings. Instead, on December 8, 2016 it held a dispositive
evidentiary hearing on multiple objections to the damaging electronic evidence of
searches for pedophiliac pornography made on an Xbox device belonging to Garcia
and denied them all. T. 412-66. This electronic evidence was also heavily relied
upon by the judge in sentencing Garcia to death. T. 883-894, C.P. 463-67. It did this
despite the fact that Garcia and his counsel both announced at the start of these
proceedings that the medication treatment had not yet resulted in a reduction of the
This also supported the constitutionally required scienter finding that Garcia “actually
killed.” T. 886, C.P. 463, Miss. Code Ann. § 99-19-101 (7)(a), Enmund v. Florida, 458 U.S.
782, 798 (1982), and both state statutory aggravators found. C.P. 463-65.

7

10

symptoms that had been the basis for the judge’s reservation of determination on
his competency. T. 413. On December 20, again before the expiration of the 30-day
period during which restoration treatment was being attempted, the trial court
conducted the Omnibus Hearing that established the substantive and procedural
parameters that would govern the upcoming trial. T. 468-98.
The Mississippi Supreme Court rejected Garcia’s claim, holding these
hearings to have been validly held and allowing the orders previously resulting
from earlier pretrial hearings. It concluded that, despite the trial judge having
ordered restorative treatment based on the expert’s unrefuted testimony, the
presumption of competency had not been overcome simply because the trial judge
had not affirmatively found Garcia to be incompetent, but had merely reserved
ruling on the issue. It based this ruling on the revived and reinvigorated
presumption of competency that it had decided as part of an about face on what was
sufficient to rebut that presumption. See Pitchford v. State, 240 So. 3d 1061 (Miss.
2017) (overruling Coleman v. State, 127 So.3d 161 (Miss. 2013), Smith v. State, 149
So.3d 1027 (Miss. 2014), and Hollie v. State, 174 So.3d 824 (Miss. 2015); and Evans
v. State, 226 So. 3d 1, 17-18 (Miss. 2017) cert. denied on other grounds sub nom.
Jordan v. Mississippi, 138 S. Ct. 2567 (2018) (retreating from its position in the
cases subsequently overruled in Pitchford requiring reversal in the absence of a
contemporaneous hearing and adjudication by trial court, as well as from the theneffective Rule’s black letter prohibition against waiver of hearing by defense). Pet.
App. A. at ¶ 66 (citing to Evans).

11

Mississippi’s use of the presumption of competency in this fashion, Garcia
respectfully submits, represents an extreme and alarming departure from the
established Fourteenth Amendment jurisprudence of this Court governing
competency and its determination. Drope v. Missouri, 420 U.S. 162, 180 (1975), Pate
v. Robinson, 383 U.S. 375 (1966), Dusky v. United States, 362 U.S. 402, 402 (1960).
The present case clearly presents that important constitutional question for
determination. And the fact that a man who was established by every means
approved by this Court for determining competency to be Dusky incompetent to
participate in pretrial proceedings will forfeit his life based on the outcome of those
proceedings, transgresses the Eighth Amendment, as well.
REASONS FOR GRANTING THE WRIT
This Court should grant the writ sought in order to preserve its
longstanding protections of the Fourteenth Amendment’s “prohibition
fundamental to an adversary system of justice” against proceeding in
any fashion against incompetent defendants, and of the Eighth
Amendment’s protection against cruel and unusual punishments.
A. Mississippi’s use of its presumption of competency to allow proceedings against
an actually incompetent defendant represents a substantial, and
unconstitutional, departure from the minimum requirements of this Court
protecting such persons.
Under the Constitution, as this Court has repeatedly said, a defendant
simply may not under any circumstances be put to trial for his liberty, much less as
Garcia was here for his life, unless he meets the minimum criteria for competency
to meaningfully participate in the proceedings seeking to deprive him of either.
Drope v. Missouri, 420 U.S. 162, 180 (1975), Pate v. Robinson, 383 U.S. 375 (1966),
Dusky v. United States, 362 U.S. 402, 402 (1960)). Violation of this prohibition as to

12

any particular accused fundamentally impinges upon that individual’s right to a fair
trial. Pate, 383 U.S. at 385. But perhaps even more importantly, strictly adhering to
that prohibition is according to this Court “fundamental to an adversary system of
justice,” Drope, 420 U.S. at 172.
Because of this, scrupulous adherence to this right must be accorded, without
exception, to all persons who the state wishes to deprive of life or liberty “regardless of
the heinousness of the crime charged, the apparent guilt of the offender or the station
in life which he occupies.” Groppi v. Wisconsin, 400 U.S. 505, 509 (1971). Thus,
Mississippi’s failure to abide by this Court’s jurisprudence, was not “simply an error
in the trial process itself” but “affect[ed] the framework within which the trial
proceeds.” Weaver v. Massachusetts, --- U.S. ---, ---, 137 S. Ct. 1899, 1907–08, (2017)
(quoting Arizona v. Fulminante, 499 U.S. 279, 310 (1991) ). It was, in other words,
structural constitutional error that cannot be subject to waiver or harmless error
analysis simply because Garcia pleaded guilty to heinous crime. Id.
The Mississippi Supreme Court made this fundamental structural error on this
important federal question when, in transgression of the foundational Due Process
guarantees of the Fourteenth Amendment and the prohibitions against cruel and
unusual punishment of the Eighth Amendment it presumed Garcia competent at
times when the only constitutionally acceptable evidence before the trial court
established conclusively that he was not.
Chronic mental illness – and the competency issues that arise out of it – are
both too common in the criminal justice system and too important for this Court to

13

ignore Mississippi’s default. The prevalence of mental illness in incarcerated people is
three times what it is in the general population. 8 Getting this question right is
therefore significant not merely to Garcia, or even only to any criminal defendants
with mental health issues who may come after him. It is essential to maintaining the
integrity of the criminal justice system as a whole, and ultimately public safety. See,
e.g., Council of State Governments Justice Center, “Adults with Behavioral Health
Needs under Correctional Supervision: A Shared Framework for Reducing Recidivism
and Promoting Recovery,” supra, n. 2, at 12 (recognizing that dealing effectively with
mental illness suffered by those within the criminal justice system is relevant not only
to that system, but also to “mak[ing] communities safer for everyone.”).
United States Department of Justice survey studies in 2006 and 2015 establish this
frequency. These studies also find that on average 24% of all local jail inmates (those who are,
in large part, pretrial detainees whose competency to stand trial might become an issue) selfreport having symptoms of mental illness that meet the criteria for a psychotic disorder, Doris
J. James and Lauren E. Glaze, U.S. Dep’t. of Justice, “Mental Health Problems of Prison and
Jail Inmates,” NCJ 213600 (2006) available at https://www.bjs.gov/content/pub/pdf
/mhppji.pdf, and that over 1% of the national jail population was so severely affected by
mental illness that they were deemed by the authorities holding them or the Department of
Justice surveyors to be too mentally incompetent even to be surveyed. Allen J. Beck, U.S.
Dep’t of Justice, “Use of Restrictive Housing in U.S. Prisons and Jails, 2011-12,” NCJ 249209
(2015) available at https://www.bjs.gov/content/pub/pdf/urhuspj1112.pdf The Council of State
Governments Justice Center reported in a 2009 study that 16.9 % of local jail inmates actually
suffered from serious mental illness. Council of State Governments Justice Center,
“Addressing Mental Illness in the Criminal Justice System” (2009), available at
https://www.justice.gov/archives/opa/blog/addressing-mental-illness-criminal-justice-system. A
multi-disciplinary 2012 paper from the same entity on how to deal with this high rate of
mental illness in the context of recidivism reduction relied on published research to confirm
this statistic, as well. See Fred Osher, M.D., David A. D’Amora, MS, Martha Plotkin, J.D.,
Nicole Jarrett, Ph.D., Alexa Eggleston, J.D., The Council of State Governments Justice
Center, “Adults with Behavioral Health Needs under Correctional Supervision: A Shared
Framework for Reducing Recidivism and Promoting Recovery” (2012), 4, available at
https://bja.ojp.gov/sites/g/files/xyckuh186/files/Publications/CSG_Behavioral_Framework.pdf
(relying on Steadman, Henry J., Fred C. Osher, Pamela Clark Robbins, Brian Case, and
Steven Samuels, “Prevalence of Serious Mental Illness Among Jail Inmates,” Psychiatric
Services 60, no. 6 (June 2009): 761–765)
8

14

Mississippi has been particularly egregious in passing the problems of mental
illness onto a corrections system which has substantial (and self-acknowledged)
shortcomings in its ability to provide for basic human needs, much less in its capacity
to actually deliver effective treatment of chronic mental health conditions. See, e.g.,
Pettus, Emily Wagster, The Associated Press, “Doctor calls Parchman conditions
‘deplorable’,” June 21, 2020, https://apnews.com/eff3da4a355d62fcf71a292aac2329df
(doctor and former lead physician for the Washington State Department of
Corrections characterizing living conditions at the Mississippi State Penitentiary as
“sub-human” and “the worst conditions I have observed in any U.S. jail, prison or
immigration detention facility in my 20 years working in this field,” and quoting new
MDOC Commissioner Burl Cain as admitting the need to “fix” that circumstance).
There have also been tragic and deadly dangers to Mississippi communities where the
criminal justice apparatus becomes involved with mental illness rather than having it
treated properly in the community in the first place. See, e.g., Fowler, Sarah, “Suspect
in deadly shooting of Simpson County deputy apprehended,” The Clarion-Ledger, June
12, 2020, available at https://www.clarionledger.com/ story/news/2020/06/12/simpsonco-deputy-killed-suspect-considered-armed-and-dangerous/3179221001/. These are
the stakes if this Court permits Mississippi to carte blanche ignore the Constitution
and permit its trial courts to go forward with proceedings against people who the only
expert testimony finds to be incompetent to participate fully in those proceedings.
And in any event, ameliorating the failure of the justice system to get mental
illness right at the threshold by removing people so impaired by it from prosecution

15

unless and until they can be treated and made healthy enough to participate in it,
does not solve the constitutional problem of subjecting such persons to prosecution
when they are not.
This Court has prescribed a constitutional definition of competency that
measures specifically the defendant’s capacity for such meaningful participation in
the proceedings, not a presumption grown so large that even uncontradicted
evidence of significant impairment of some or all of that capacity is insufficient to
rebut it. Dusky, 362 U.S. at 402. See also Cooper v. Oklahoma, 517 U.S. 348, 354
(1996). While this Court has held that a statutory presumption of competency does
not necessarily violate procedural due process, even in a death penalty case, it has
put substantial limits on how far states may expand that presumption. See Cooper
v. Oklahoma, 517 U.S. 348, 354 (1996), Medina v. California, 505 U.S. 437 (1992)
(prohibiting states from expanding the presumption so far as to requiring a higher
level of proof than a preponderance of the evidence to overcome it). Though
Mississippi does not purport to increase the burden of proof from a preponderance of
the evidence, Pet. App. A at ¶ 69, it did the same thing in the present case by the
back door by allowing its presumption of competency to accept a judge’s lay,
stereotyped and inaccurate assumptions about both the factual reality of Garcia’s
condition and the scientific premises of psychology – assumptions that the expert
has expressly refuted without any contradiction, Pet. App. E, Competency Hearing
Transcript, at T. 387-93 – over the actual evidence of record.
This Court should also grant the Petition in this case to prevent Mississippi’s

16

extreme approach to the presumption of competency from becoming an example for
other jurisdictions to likewise erode this fundamental protection. The ease with which
Mississippi has, over the course of the past three years, retreated from its previously
constitutionally acceptable rules and jurisprudence, reflects a dangerous anticonstitutional trend. See Miss. Unif. Cir. & Cty. Ct. Rule 9.06 (superceded effective
July 1, 2017 by Miss. R. Cr. P. 12) and Sanders v. State, 9 So. 3d 1132, 1135-36
(Miss. 2009). These rules and this jurisprudence were applied for the better part of
a decade and ensured that only the constitutionally competent, as defined by this
Court’s jurisprudence, were tried, convicted and sentenced for crimes. See, e.g.,
Hollie v. State, 174 So. 3d 824, 830 (Miss. 2015), Smith v. State, 149 So. 3d 1027,
1029 (Miss. 2014), Beasley v. State, 136 So.3d 393, 398 (Miss. 2014), Coleman v.
State, 127 So.3d 161 (Miss. 2013), Jay v. State, 25 So.3d 257, 261-62 (Miss. 2009).
Mississippi has now placed itself outside the scope of the freedom this Court has
given the states to create procedures for ascertaining competency by replacing a
constitutionally acceptable approach with one that ignores this Court’s
jurisprudence entirely. As the alarmed minority of the Mississippi Supreme Court
in this process has recognized, Mississippi has done this largely by reinvigorating
the presumption of competency that had taken a back seat under its earlier
procedural rules, compare Miss. Unif. Cir & Cty. Ct. Rule 9.06 with Miss. R. Crim.
P. 12 and by overruling the cases that had embodied the constitutionally proper
standards. See Pitchford v. State, 240 So. 3d 1061, 1070 (Miss. 2017) (expressly
overruling Coleman, Smith, and Hollie, and, as is noted in the concurrence,

17

implicitly Sanders, Beasley and Jay, as well.) Id. at 1080 (Kitchens, P.J.,
concurring)). See similarly, Evans v. State, 226 So. 3d 1, 14 (Miss. 2017). Id. at 49-50
(Kitchens, P.J., dissenting).
But even in Pitchford and Evans, the presumption of competency had, in the
end, been borne out by expert opinion. Pitchford, 240 So. 3d at 1066, Evans, 226 So.
3d at 14-15. In the present case, however, the only expert opinion and evidence
affirmatively rebutted it. Pet. App. D, Storer Report; Pet App. E., Competency
Hearing Transcript at T. 372-403. The Mississippi Supreme Court in the present
matter has swept away any requirement that, at least once there is a hearing and
evidence concerning it is adduced, the presumption must bow to the evidence.
Contrary to the Mississippi Supreme Court’s assertions, Pet. App. A at ¶¶ 63-66,
Dr. Storer never contradicted himself or otherwise in any way retreated from his
expert opinion that Garcia was, in fact, substantially impaired in his capacity to
rationally understand and meaningfully participate in the courtroom setting due to
the effects of severe mental illness of anxiety disorder. T. 386-394. The Mississippi
Supreme Court’s bewildering contrary conclusion – and its cavalier finding that the
presumption of competence was sufficient to uphold the trial court’s actions – is
based on a mistaken conflation of not only Dr. Storer’s testimony about, but also the
trial judge’s conclusions regarding, two distinct competency related issues.
Dr. Storer consistently, and despite a great deal of challenging examination
by the trial judge, maintained throughout his testimony that Mr. Garcia’s severe
and untreated anxiety disorder was a mental illness that did render Mr. Garcia

18

incapable of competently participating in open court proceedings, “I do know for
certain that his ability to attend and participate is being impaired.” Competency
Hearing Transcript at T. 393. This was Dr. Storer’s firm opinion, independently of
and notwithstanding the fact that Dr. Storer could not and did not conclusively
opine on the separate and distinct issue of whether Mr. Garcia’s rational
understanding in general or capacities for other than in open court proceedings were
similarly impaired. Id. at T. 392-93.
Nor is the trial court’s ruling at the time this testimony was given
inconsistent with the distinction between the two separate competency issues
affecting Garcia. On out-of-court competency, in light of Dr. Storer’s lack of
certainty on that issue, it found Garcia unimpaired. Id. at T. 404-05. But on the incourt participation incompetency, it reserved its ruling, Id. at T. 405. It instead
followed Dr. Storer’s recommendations and ordered ameliorative treatment for the
condition, Id. at T. 405-06, C.P. 416. It made no final finding that Garcia’s in-court
impairments did not render him incompetent, as Dr. Storer had unequivocally and
consistently testified at the November hearing, until six weeks later. T. 512-13, C.P.
438, 441. And did so then only after Dr. Storer had testified anew that he was
satisfied that the six weeks of ameliorative treatment had controlled the anxiety
disorder sufficiently to eliminate the impairments to competency in the courtroom
that had previously rendered Garcia incompetent for such proceedings. T. 501-05.
By affirming Garcia’s sentence despite this undisputed record, Mississippi
has expanded the presumption of competency to near irrebuttability and has gone so

19

far beyond any constitutional boundaries attending such a presumption that Garcia
was unconstitutionally sentenced to die. Dusky v. United States, 362 U.S. 402, 402
(1960). See also Pitchford, 240 So. 3d at 1076 (Kitchens, P.J., concurring), Evans, 226
So. 3d at 49-50 (Kitchens, P.J., dissenting). The Writ should be granted to prevent
further erosion of this right.
B. Where the proceedings are in aid of imposition of a death sentence, Mississippi
violates the Eighth Amendment by using a presumption of competency that
ignores and rejects the well-established objective psychological and psychiatric
methods that have long been relied upon to establish whether a criminal accused
is competent to be proceeded against and instead permits reliance upon
subjective and inaccurate non-scientific stereotypes of what is and is not a
mental illness.
This Court should also grant the Writ sought because Mississippi’s expansion
of its presumption of competency in this case also transgresses the Eighth
Amendment insofar as it “ensure[s]that death sentences are not imposed
capriciously or in a freakish manner.” Gregg v. Georgia, 428 U.S. 153, 195 (1976).
While this Court gives the states considerable leeway to experiment with the
means for implementing the protections of the Eighth Amendment, that
experimentation is not without its limits. Where those experiments threaten to
deny criminal accuseds “the basic dignity the Constitution protects” this Court does
not hesitate to correct the states that exceed those limits. Hall v. Florida, 572 U.S.
701, 724 (2014). Because the prohibition against proceeding against incompetent
persons in any criminal case, and certainly in proceeding against them to deprive
them of their very lives, is “fundamental to an adversary system of justice,” Drope v.
Missouri, 420 U.S. 162, 172 (1975), it is clearly one of those basic dignities that this

20

Court must ensure remains protected.
In the context of determining the exemption from the death penalty for
intellectual disability created by Atkins v. Virginia, 536 U.S. 304 (2002) this Court
has recognized that where scientific evidence and testimony are the accepted means
for establishing Eighth Amendment-significant facts, states may not create
standards for determining those facts that ignore or are contrary to the scientific
standards themselves. Hall, 572 U.S. 701; Moore v. Texas, --- U.S. ---, ---, 137 S. Ct.
1039, 1052 (2017). See also Brumfield v. Cain, 576 U.S. 305, 315-320 (2015)
(concluding, for purposes of federal habeas review, that state court fact-findings
that rested on interpreting IQ scores in a manner rejected by the scientific
community, and that rejected out of hand even disputed expert testimony
concerning the existence of adaptive deficits, were “unreasonable” in light of Hall.)
As with intellectual disability, this Court has placed evaluation by the
appropriate mental health resource at the core of what is required to protect the
constitutional right at issue. See, e.g., Drope, 420 U.S. at 176 (noting that failure to
obtain contemporaneous psychiatric evaluation specifically for competency when
reasonable grounds to question competency arose during trial rendered the state
court’s protection of the right to competency constitutionally inadequate). But this
Court has not yet considered the consequence of allowing the courts to flout the
scientific standards that apply to such evaluations, as Mississippi’s expansive
presumption of competency does. This important question is clearly presented by
the instant matter, and Garcia respectfully submits that the principles requiring

21

adherence to the scientific standards by which intellectual disability is assessed are
equally applicable to competency determinations.
In Hall, this Court recognized that because the constitutionality of the death
sentence required consideration of the defendant’s psychiatric or psychological
diagnosis, and its determination was otherwise “informed by the work of medical
experts,” those experts, and the standards they promulgate to govern their work,
could not be ignored or supplanted by courts called upon to make the relevant
determinations:
Those professionals use their learning and skills to study and consider
the consequences of the classification schemes they devise in the
diagnosis of persons with mental or psychiatric disorders or
disabilities. Society relies upon medical and professional expertise to
define and explain how to diagnose the mental condition at issue.
Hall, 572 U.S. at 710. Where a court makes a determination that rejects out of hand
this expertise in favor of judicially created standards or stereotypes about the
mental condition that are not supported by the governing scientific principles, this
Court has been quick to condemn that displacement, noting that relying on such
stereotypes rather than on “medical or clinical appraisals, should spark skepticism”
about whether the Constitution has been complied with. Moore v. Texas, 137 S. Ct.
1039, 1052 (2017).
As with determining intellectual disability, determining competency to stand
trial necessarily requires, at the threshold, proper diagnosis of the accused’s mental
condition. With respect to competency, this Court requires that the accused show
that his “mental condition is such that he lacks the capacity to . . . to assist in

22

preparing his defense.” Drope, 420 U.S. at 171 (1975) (emphasis supplied).
Ascertaining this threshold fact necessary to ascertaining incompetency necessarily
requires, just as Atkins does for ascertaining intellectual disability, the use of
“medical and professional expertise to define and explain how to diagnose the
mental condition at issue.” Hall, 572 U.S. at 710.
Indeed, following this Court’s guidance on how to safeguard accuseds’
fundamental protection from being proceeded against while incompetent, see, e.g.,
Drope, 420 U.S. at 172-73, Pate, 383 U.S. at 385, Mississippi requires that such
medical and professional expertise be obtained if the trial court determines, as it
did in Garcia’s case, that there were reasonable grounds calling the accused’s
competency into question. See Miss. R. Cr. P. 12.2 (a) (“If . . .the court . . . has
reasonable grounds to believe that the defendant is mentally incompetent, the court
shall order the defendant to submit to a mental examination.”); 12.3(a) (If the Court
determines that reasonable grounds for a mental examination exist, it shall order a
competent psychiatrist and/or psychologist to examine the defendant and, if
necessary, to testify regarding the defendant’s mental condition.”) (emphasis
supplied).
In Garcia’s case, the trial court constitutionally properly ascertained that
there were reasonable grounds to question Garcia’s competency, and, also
consistently with the Constitution’s requirements, ordered that Dr. Storer, a clinical
forensic psychologist competent to perform a mental examination regarding
competency, examine Garcia specifically with respect to his competency. T. 29-45;

23

Pet. App. D., Storer Report, at 1. Further comporting with the requirements of due
process, the trial court held a hearing on Garcia’s competency at which the expert,
without contradiction from any other competent psychiatrist or psychologist,
diagnosed Garcia with a mental illness – severe anxiety disorder – and testified
that this illness significantly impaired “Garcia’s ability to participate in legal
proceeding, to attend to what’s going on, and to actually consult and work with
defense counsel over the course of a trial.” Pet. App. E. Competency Hearing
Transcript at T. 373. And, again without contradiction from any other competent
psychiatrist or psychologist, Dr. Storer further opined to a reasonable degree of
psychological certainty that Garcia was then and had been since his arrest, as a
result of his mental illness, “not competent to stand trial.” Id. at T. 379-80.
Despite complying with the Constitution up to this point, however, what
happened next transgressed Garcia’s Eighth and Fourteenth Amendment
protections. The trial court apparently credited the diagnosis and opinion of the
expert insofar as the expert also opined that Garcia might be restored to
competency if he was properly medicated, and was on a proper medication regime
for at least 30 days, and continued on one thereafter, id. at T. 383-84, 387. It in fact
ordered such treatment, id. at 404-05. But it did not make any competency
determination at that time. It deferred that determination (though nothing else)
and elected, contrary to the uncontradicted and scientifically established
incompetency testified to by the expert on the basis of using established
psychological techniques and expertise, to continue as if Garcia were competent. It

24

justified this by relying on the judge’s personal, though unsupported, view that it
could conduct a trial despite the fact that the defendant had the impairments
testified to by the psychologist, and that those impairments merely took “patience”
from counsel to overcome. Id. at T. 404-06.
The Mississippi Supreme Court affirmed this course of conduct using the
“presumption of competency” as the basis for doing so. Pet. App. A at ¶ 66. For the
same reasons that this Court rejected the efforts by states to end run the
constitutional protections embodied in Atkins and its progeny in Hall, Brumfield,
and Moore, this Court should grant the Writ and determine that the constitutional
protections embodied in Dusky and Drope and their progeny cannot be evaded by
ignoring the science and expertise that are at the core of determining competency.
CONCLUSION
For the reasons set forth above, Petitioner respectfully requests that a writ of
certiorari issue to review the judgment of the Mississippi Supreme Court on the
Question Presented.
Respectfully submitted,
ALBERTO JULIO GARCIA, Petitioner
By: s/ André de Gruy
Counsel of Record for Petitioner

André de Gruy*
Alison Steiner
Office of the State Public Defender
Capital Defense Counsel Division
239 N. Lamar Street, Suite 601
Jackson, MS 39201
601-576-2315 (direct line)
adegr@ospd.ms.gov

*Counsel of Record

25

INDEX TO APPENDICES
APPENDIX A:

Supreme Court of Mississippi Opinion, May 14, 2020, reported at
Garcia v. State, 300 So.3d 945 (Miss. 2020).

APPENDIX B:

Unpublished order denying rehearing dated September 10, 2020.

APPENDIX C:

Unpublished mandate issued September 17, 2020.

APPENDIX D:

Competency Hearing Exhibit D-1, November 17, 2016 Report of
court appointed forensic psychologist Robert Storer, Ph.D.

APPENDIX E:

Transcript of Competency hearing of November 22, 2016, T. 371411

26

APPENDIX A
to
Petition for Writ of Certiorari
Supreme Court of Mississippi Opinion, May 14, 2020
reported at
Garcia v. State, 300 So.3d 945 (Miss. 2020).

Julio Garcia v. State, 300 So.3d 945 (2020)

300 So.3d 945
Supreme Court of Mississippi.
Alberto JULIO GARCIA a/k/a
Alberto J. Garcia a/k/a Alberto Garcia
v.
STATE of Mississippi
NO. 2017-DP-00504-SCT
|
05/14/2020
|
Rehearing Denied September 10, 2020
Synopsis
Background: Following denials of pretrial motions to
suppress and for change of venue, defendant was convicted
on guilty plea in the Circuit Court, Harrison County, Lisa
P. Dodson, J., of capital murder, and sentenced to death.
Defendant appealed.

Holdings: The Supreme Court, Maxwell, J., held that:
finding that defendant was competent to stand trial was not
abuse of discretion;
defendant was mentally competent to waive right to jury in
sentencing phase of trial;
denial of pretrial motion for change of venue did not render
waiver of jury trial for sentencing phase invalid;
denial of motion for change of venue was not abuse of
discretion;

defendant was not “in custody,” as would trigger Miranda
protections, when he made voluntary, inculpatory statements
to patrol officer while on way to police station;
state pathologist's expert testimony did not violate defendant's
right of confrontation;
defendant's claim that trial court judge should have sua sponte
recused herself from sentencing hearing was procedurally
barred; and
Mississippi's death penalty scheme did not violate
Eighth Amendment prohibition against cruel and unusual
punishment as applied.
Affirmed.
King, P.J., filed opinion concurring in part and in result, in
which Kitchens, P.J., joined.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection; Pre-Trial Hearing
Motion.
*951 HARRISON COUNTY CIRCUIT COURT, HON.
LISA P. DODSON, JUDGE
Attorneys and Law Firms
ATTORNEYS FOR APPELLANT: OFFICE OF STATE
PUBLIC DEFENDER BY: ALISON R. STEINER ANGELA
BROUN BLACKWELL
ATTORNEYS FOR APPELLEE: OFFICE OF THE
ATTORNEY GENERAL BY: CAMERON LEIGH
BENTON, Jackson
EN BANC.

evidence that Internet searches of sexually explicit and violent
nature involving young girls were made on defendant's
electronic game console made prima facie showing of
authenticity;
probative value of evidence that, in week prior to crime,
Internet searches were made on defendant's electronic gaming
console that involved young girls and were of sexually
explicit and violent nature was not substantially outweighed
by danger of unfair prejudice;

Opinion
MAXWELL, JUSTICE, FOR THE COURT:
*952 ¶1. After a twelve-hour search, police found the dead
body of a missing five-year-old girl. Her body was located
in a filthy, abandoned trailer fifty yards from her apartment
complex. She had been sexually assaulted, vaginally and
anally, and then hanged by the neck with a pair of socks tied
to a window crank. Twenty-nine-year-old Alberto Garcia, a
resident of the same apartment complex, confessed to killing
the child in the course of raping her. Forensic evidence

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Julio Garcia v. State, 300 So.3d 945 (2020)

confirmed Garcia's DNA had been found in the child's vagina
and anus.
¶2. On the eve of his capital-murder trial, Garcia pled guilty.
He also waived his right to a jury at sentencing. Following a
three-day hearing, the trial judge, the Honorable Lisa Dodson,
found two aggravating circumstances—the young victim was
killed during the course of a sexual battery and the nature
of the capital offense was especially heinous, atrocious, and
cruel—outweighed the mitigating factors of Garcia's lack of
significant criminal history, relatively young age, and difficult
childhood. Based on these findings, she sentenced Garcia to
death.
¶3. Garcia appeals his sentence only. 1 Applying the
heightened scrutiny that a death-penalty appeal demands,
we find no merit to Garcia's claims the trial judge erred
in her sentencing decision. Because the death penalty
is constitutional and because Garcia's death sentence is
proportionate to other sentences imposed for the capital
murder of a young sexual-assault victim, we affirm his
sentence of death.
1

Because he pled guilty, Garcia has no right to
appeal his underlying capital-murder conviction.
See Miss. Code Ann. § 99-35-101 (Rev. 2015).

Facts & Procedural History
I. JT goes missing and is later found hanged.
¶4. On the evening of July 16, 2014, five-year-old JT 2 was
running in and out of the patio door of her apartment, playing
with a neighbor outside. Around 5:30 p.m., her mother called
to her, but JT did not answer. After two hours of searching,
JT's mother called 911. Police, neighbors, and volunteers
systematically searched the area through the night.
2

This opinion refers to the child victim by her initials
only.

¶5. At 7:45 a.m. the next morning, police found JT's
half-naked body in the bathroom of an abandoned trailer
approximately fifty yards from JT's apartment. She had been
hanged with a pair of socks tied around her neck and fastened
to the shower window. There were signs of sexual penetration
of her vagina and anus. There were also scratch marks around
her neck showing she had tried to free herself from the
makeshift noose before she died from ligature strangulation.

II. Garcia approaches the police.
¶6. Based on a tip, investigators developed a person of
interest—one of JT's neighbors in the apartment complex,
Julian Casper Gray. As police searched Gray's apartment
the evening *953 of July 17, Garcia, Gray's friend and
neighbor, engaged the police commander in conversation.
Because Garcia appeared to be volunteering information
relevant to the investigation, a detective went to Garcia's
apartment. He asked Garcia if he would be willing to speak
with investigators at the police station.
¶7. Garcia agreed. On the ride to the police station, Garcia
mentioned that his fingerprints would likely be found in
the trailer because he had been in the trailer the weekend
before. At the station, another detective formally interviewed
Garcia after reading Garcia his Miranda rights and obtaining
a waiver. See Miranda v. Arizona, 384 U.S. 436, 444, 86
S. Ct. 1602, 16 L. Ed. 2d 694 (1966) (requiring that, before
a custodial interrogation, the person interrogated be warned
he has a right to remain silent, that any statement he makes
may be used as evidence against him, and that he has a right
to the presence of an attorney, either retained or appointed).
Garcia told the detective he had stolen some items from the
trailer a few days earlier. So his fingerprints and possibly
DNA would be in the trailer. He also mentioned his semen
may be in the trailer because he had masturbated there while
visiting the trailer's prior occupants. Garcia claimed he had
possibly blacked out around the time of JT's disappearance
and that he woke up with feces on his penis and inner thighs.
Garcia said the feces was not his. 3 And he immediately took
a shower and washed his clothes. The interview ended when
Garcia asked for a lawyer. 4
3

During his guilty plea, Garcia admitted JT
defecated on him when he penetrated her anus with
his penis.

4

A few days later, Garcia requested a second
interview with the same detectives. This time, he
insisted he had not blacked out during the time
JT went missing. He also backtracked from his
earlier admission that he had showered because
his penis and thighs were covered in someone
else's feces. Instead, Garcia told the detectives that
Gray had come to his apartment asking for help.
Garcia said he followed Gray to the abandoned
trailer where he found JT tied to a chair in the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Julio Garcia v. State, 300 So.3d 945 (2020)

bedroom. Garcia admitted that he helped move JT's
body to the bathroom, where he tried to rinse feces
and semen off JT. Garcia also admitted using the
socks tied around JT to hang her by the crank on
the window. During this interview, Garcia insisted
he had not sexually assaulted JT. He explained,
however, that his semen was possibly on JT's body
because when Gray came to his apartment, Garcia
had just finished masturbating and had not washed
his hands before going to the trailer.
¶8. Based on this information, police obtained a search
warrant for Garcia's apartment. In his bedroom, police found
an Xbox 360 game console, which was connected to the
internet. A digital forensic examiner recovered the internet
searches made on the console in the days leading up to JT's
rape and murder. These search phrases included “toddler
hentai,” 5 “poor little thing,” “kidnapped and raped,” and
“virginravisher.”
5

According to the forensic examiner, a “hentai” is a
sexually explicit anime or cartoon.

¶9. Garcia was arrested and held without bond. On October
5, 2015, a grand jury indicted Garcia for capital murder in the
commission of felony sexual battery.
III. Garcia moves to suppress his statements.
¶10. On July 15, 2016, Garcia moved to suppress the Xbox
search and his statements to the police. He claimed his
apartment was illegally searched because he had never been
read his Miranda rights before being recorded in the police
car. He suggested his statement on the way to the police
station and all his following statements and evidence were
“fruit of the poisonous tree.” *954 Marshall v. State, 584
So. 2d 437, 438 (Miss. 1991) (explaining the “fruit of the
poisonous tree” doctrine—also known as the exclusionary
rule—deems inadmissible any evidence obtained incident to
an unlawful search or seizure (citing Murray v. United States,
487 U.S. 533, 536, 108 S. Ct. 2529, 101 L. Ed. 2d 472
(1988))).
¶11. On July 26, 2016, the trial court held a suppression
hearing. Police Commander Ken Brown testified that, on July
17, 2014, during the search of Gray's apartment, he was in
the hallway when Garcia approached him and asked about
the investigation. At this point, Garcia was not a person
of interest or a suspect. This conversation was relayed to
Detective Clay Fulks. Detective Fulks, a patrol officer in July

2014, followed up by going to Garcia's apartment. Garcia
volunteered to go to the police station to provide information.
While Garcia chose to ride in the back of the police car, he
was not restrained. Detective Fulks activated the vehicle's
recording system. During the fifteen-minute drive, the two
engaged in a casual conversation. But at some point Garcia
mentioned that his fingerprints may be found in the trailer
where JT was discovered. Garcia explained that he knew the
trailer's former occupants. Detective Fulks testified that, at
this point, Garcia was not a suspect. When they arrived at the
station, Detective Fulks parked in the front parking lot and not
at the sally port where suspects are delivered. Detective Fulks
testified Garcia was one of three witnesses he transported to
the police station during the investigation.
¶12. During Detective Fulks's testimony, the State played the
recording of the fifteen-minute ride to the police station. The
trial court ruled the video could come in as evidence against
Garcia. Garcia was not in custody at the time. And it was
clear from the video that Garcia was the one who started
the conversation. He volunteered, without being asked, that
his fingerprints would be found in the trailer because he had
been there just days before, rummaging through the prior
occupants’ belongings.
¶13. The trial court also ruled that the search warrant for
Garcia's apartment had been supported by probable cause
—namely, the statement Garcia gave to investigators at
the police station after he voluntarily waived his Miranda
rights. 6
6

In his recorded interview at the police station,
Garcia told the detectives they would find items
that Garcia took from the trailer in his apartment.
Garcia was separately charged with burglary.

IV. Garcia moves to change venue.
¶14. At the same July 26, 2016 hearing, the trial court took
up Garcia's motion to change venue, which he had filed July
14, 2016. In his motion, Garcia argued there was a reasonable
likelihood that an impartial jury could not be impaneled in
the First Judicial District of Harrison County. He asserted
the disappearance and death of JT was “sensational, frontpage news throughout the Gulf Coast region.” To support
his motion, he attached copies of various media reports,
along with affidavits by three community members. See Miss.
Code § 99-15-35 (Rev. 2015) (requiring a motion to change
venue be “supported by the affidavits of two or more credible
persons”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Julio Garcia v. State, 300 So.3d 945 (2020)

¶15. At the hearing, Garcia, the State, and the trial court
agreed to the following procedure: Garcia would present his
evidence supporting the motion, and the State would present
its evidence opposing the motion. Then, the question of
pretrial publicity would be put to fourteen people who had
been summoned but not selected for *955 jury duty for
an unrelated trial being held that day. But after Garcia and
the State presented their arguments and evidence, the court
learned the case scheduled for trial had ended in a guilty plea,
so there were no jurors to question. After further discussions,
Garcia, the State, and the court agreed to defer the rest of the
hearing until another mock jury was available.
¶16. Three weeks later, on August 16, 2016, the changeof-venue hearing resumed. As agreed, the court brought in
thirty prospective jurors who were not seated in an unrelated
trial taking place that day. They were questioned by the
trial judge about their knowledge of the pretrial publicity
surrounding JT's murder and Garcia's arrest. After general
questions were asked, fourteen jurors were seated and asked
additional detailed questions by Garcia's counsel and the
State. 7 From their responses, the trial court concluded that
“a fair and impartial jury can be seated, given proper and
thorough voir dire.”
7

Once seated in the jury box, these fourteen people
were told they would not serve as the actual jury
in Garcia's case. Instead, they would be asked
questions about pretrial publicity so the court could
determine if the accused would receive a fair trial.

¶17. The trial court also weighed other factors—the fact the
case was capital, the lack of evidence of threats of violence
against Garcia, and the media coverage, which the court
determined was not “an inordinate amount.” See White v.
State, 495 So. 2d 1346, 1349 (Miss. 1986) (enumerating
factors that when present indicate the presumption that a fair
trial cannot be had in the jurisdiction where the crime occurred
is irrebuttable). The court denied Garcia's motion to change
venue.
V. The trial court considers Garcia's competency.
¶18. On November 22, 2016, the trial court heard testimony
from forensic psychologist Dr. Robert Storer on a “possible
competency issue.”
¶19. After evaluating Garcia, Dr. Storer testified that, in his
expert opinion, Garcia was not competent to stand trial. While

Garcia had no intellectual deficits, there was a “constant
theme of anxiety” in his life. Dr. Storer noted that Garcia had
suffered at least one panic attack while at court. And if Garcia
became anxious, Dr. Storer opined, he would be unable to
participate in trial and interact with his attorneys. Dr. Storer
also expressed doubt about Garcia's ability to make rational
decisions concerning his legal situation. When asked, Garcia
said he would prefer death over a life sentence due to the
solitary confinement of death row. Dr. Storer recommended
Garcia get long-term treatment for his anxiety, which could
be administered in jail. Dr. Storer opined that thirty days
of treatment would be enough for Garcia to experience a
“different outcome.” Dr. Storer said he would wait until after
this treatment period was over before completing his full
forensic report.
¶20. The trial judge then questioned Dr. Storer more carefully.
She first asked if Dr. Storer was aware that the day of Garcia's
alleged panic attack, Garcia had not been administered his
regular medication. She also asked if Dr. Storer was aware
that Garcia had no problem during the court proceedings.
Rather, as court recessed for lunch, Garcia told his attorneys
that he felt uncomfortable. The trial judge then asked Dr.
Storer about his earlier comment that Garcia had responded
appropriately to the questions asked by the court and that
Garcia fully understood what was going on. Dr. Storer
reiterated that Garcia's intellectual functioning was fine. He
also explained that his anxiety *956 disorder “is not a severe
and persistent mental illness of the type that would alter
someone's perception of reality.” But Dr. Storer cautioned that
Garcia's anxiety “shuts him down to where he's not paying
attention and listening and processing information, and he's
not able to ask questions of his attorneys as appropriate or
point things out.”
¶21. Finally, the trial judge asked what was illogical or
irrational about Garcia's preferring his own jail cell. Before
Dr. Storer answered, the judge interjected,

[L]et me tell you that for many years
I have expressed the opinion that if I
were in this position, I would rather
have the death penalty than a life
without [parole] for several reasons.
One of which is that I would have
my own cell where no one else would
be and my own things that no one
else would bother. I don't find that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Julio Garcia v. State, 300 So.3d 945 (2020)

at all irrational. I find it very much
like those who perhaps have a lifethreatening disease make a choice
either for treatment or no treatment. So
tell me why it's irrational in this case.

Dr. Storer responded that his concern was that Garcia's
decision-making ability may be impacted by his anxiety
disorder. But he could not say to a reasonable degree of
psychological certainty that this was so.
¶22. After speaking with Garcia, who said he was “feeling
fine” that day, the trial judge made her ruling:
[B]ased on the testimony, and of course my observances
of Mr. Garcia, it does not appear to me that he is in any
manner incompetent in terms of intellectual functioning or
his ability to understand and appreciate what is going on or
in fact in his ability to consult with his attorneys.
I do have some question, based on Dr. Storer's testimony,
with regard to if we were to go to trial, how he would handle
that in the courtroom because I do recall that at some point
it was reported to me that he was beginning to experience
some anxiety on one of our hearings previously.
It was also reported to me he had not received his
medication that morning, and the nurse I believe actually
traveled here to the courthouse to provide him with that.
And he did much better and was much more relaxed,
insofar as my observations, for the portion after the lunch
break.
It appears to me that clearly he could participate during
trial. And I think that based on that, we probably need
to follow Dr. Storer's recommendation in that regard and
have Mr. Garcia seen by whomever at the jail can make
the determination as to the appropriate medication and
determine if, in fact, they believe a long-acting medication
would be better than what he is taking or a different dose
of what he's taking would be better and to allow him that
30 days to get that, as I understand it, therapeutic level is
what Dr. Storer is talking about, and then have Dr. Storer
again speak with him in that regard.
So at this point I find him competent but for that potential
issue, and I'll reserve that issue to see if in fact the
medication which Mr. Garcia states he's more than willing
to take because it seems to make him feel better and

function better, and we'll see what sort of result that has
because I think at this point he probably could make it
through a trial, and he probably would do all right going
through a trial.
But I think it would take a great deal of patience on his part
and his attorney's part. It might take more frequent breaks,
et cetera. And once we're into the trial, it would be very
difficult at that point. If in fact he did have one of these as
attacks and was unable to participate, *957 we would be
unable to move forward. so I think the better course is to try
to treat this first and see where we stand in about 30 days.
¶23. The trial judge concluded the hearing by addressing
Garcia directly about his stated preference for the death
penalty:
Judge: Now, Dr. Storer says you have a preference in
this case that you've expressed to him about sentencing.
I've told him an opinion I've held for some time about
sentencing. I don't want you to be swayed by my opinion
one way or the other.
Garcia: No, ma'am. I won't.
Judge: Because I'm not in your situation.
Garcia: I understand, ma'am.
Judge: It's an academic exercise for me in terms of my years
of practice, et cetera. So I don't want you to be swayed
by that. I asked him that because I wanted to know really
truly what he was thinking on that.
Garcia: Yes, ma'am. I understood about that.
VI. Garcia moves to exclude Xbox searches.
¶24. The following month, on December 8, 2016, the trial
court took up Garcia's motion in limine to exclude the explicit
searches on the Xbox 360 based on lack of authentication and
unfair prejudice. See M.R.E. 901; M.R.E. 403. Garcia argued
there was no proof he was the one who made those internet
searches and that the probative value of the evidence was
outweighed by unfair prejudice.
¶25. Detective Sam Jewell testified for the State. He explained
that while Garcia lived in a two-bedroom apartment with
another family, 8 that family was out of town the week of
JT's disappearance and death. Detective Jewell testified he
seized the Xbox from Garcia's bedroom, which Garcia did not

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Julio Garcia v. State, 300 So.3d 945 (2020)

share with anyone. On cross-examination, Detective Jewell
admitted it was possible that another person could have used
the Xbox the week of July 10-18, 2014, including Julian
Gray, who at the time of the suppression hearing was under
indictment for possession of child pornography. The State
also called the digital forensic examiner with the FBI. This
examiner was responsible for validating the sexually explicit
search queries the week of JT's disappearance and death. On
cross-examination, the examiner acknowledged that the user
name for the Xbox account was “dummy” with no password
protection.
8

The family consisted of a coworker of Garcia's, the
coworker's wife, and their two small children.

¶26. The trial judge denied Garcia's motion in limine. On the
question of authenticity, the judge found,

There is also no proof that anyone else
actually accessed the Xbox during the
relevant time period. There's nothing
to indicate that anyone else was in the
room, had access to the Xbox, and
certainly there's a possibility it was
used by other people, it was moved
other places, et cetera. Anything is
possible. It could have floated at some
point. But that's not likely either.

¶27. Based on the State's witnesses’ testimony, the trial judge
ruled the State sufficiently authenticated that the searches
actually came from Garcia's Xbox. It would be up to a jury
to decide how much weight to give this information and if
Garcia, Gray, or someone else made the searches. At this
point, the judge found no basis to *958 exclude the Xbox
searches on authenticity grounds.
¶28. The trial judge also rejected Garcia's unfair-prejudice
argument.
VII. The trial court holds pretrial omnibus hearing.
¶29. On December 20, 2016, the trial court held a pretrial
omnibus hearing. Of note for this appeal, when the judge
reached the issue of competency, she asked Garcia's counsel,
“[A]t this point, ... there's no claim of incompetency to stand
trial but for this anxiety issue we've already addressed, and

that's not really a competency issue so much as a being able
to pay attention and participate, right?” To which Garcia's
counsel responded, “That's correct, Your Honor.”
VIII. The trial court revisits Garcia's anxiety issue.
¶30. On January 12, 2017, the week before the scheduled trial,
the trial court held a hearing “to follow up on Dr. Storer's
earlier testimony concerning the anxiety issue.”
¶31. Dr. Storer testified that, after Garcia received medical
treatment for his anxiety, Dr. Storer reevaluated Garcia in
front of Garcia's entire legal team, plus a dozen officers, to
create as close as possible the courtroom setting. While Garcia
still had anxiety disorder, in Dr. Storer's opinion the medical
intervention had been effective to the point that there was
no significant interference with Garcia's competency-related
abilities. Dr. Storer found Garcia competent either to stand
trial or to enter a guilty plea and waive his constitutional
rights.
¶32. The trial judge then entered her ruling:
All right. Then at this point, clearly the court previously
found that Mr. Garcia was competent with regard to his
mental functioning, his intellectual abilities, et cetera.
But there was some concern with not purely competence,
but his ability to be in the courtroom and to fully participate
in his defense, to communicate with his counsel, if he
choose[s] to do so, to be able to testify.
And that was all tied to this anxiety disorder and his feeling
a heightened level of anxiety in the courtroom. ... Based
though, on Dr. Storer's testimony as well as the court's
observations of Mr. Garcia, it appears that that matter has
been fully addressed with regard to this new medication
and perhaps these new interventions that Dr. Storer testified
to.
And so it appears to me that Mr. Garcia is fully competent
and fully able to go forward in his matter, to make all
necessary decisions with regard to assertion of his rights,
waiver of his rights if he chooses to waive any, testifying if
[he] chooses to testify, going to trial if that is his choice or
entering a guilty plea if that is his choice.
IX. Garcia moves to waive a jury for sentencing.
¶33. On January 17, 2017, the day before his scheduled trial,
Garcia filed a motion for sentencing by the judge without

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Julio Garcia v. State, 300 So.3d 945 (2020)

a jury present. See Miss. Code Ann. § 99-19-101(1) (Rev.
2015) (conferring the statutory right to jury sentencing upon
conviction or adjudication of guilty of capital murder). The
judge held a hearing on the motion the same day.
¶34. The hearing mainly consisted of the trial judge's advising
Garcia of the rights he would be giving up and ensuring
Garcia understood the difference between having a jury
of twelve of his peers versus one judge sentence him.
In particular, the judge highlighted her unique experiences
*959 that jurors would not have—namely, prosecuting,
defending, and presiding over other capital-murder cases. She
also pointed out to Garcia that, as the judge presiding over his
case, she had participated in conversations with Garcia and
his counsel and had read attorney status reports that a jury
would not be privy to. Instead of ruling on the motion that
day, she advised Garcia to think about his decision overnight
and to consult with his attorney.

Garcia: Ma'am, I feel more comfortable having one
individual, not 12, presiding over my sentencing. And I
believe since you know me already and you can make
that decision properly without any, you know, problems,
ma'am.
Court: Let me ask you this, Mr. Garcia. Do you think that
if the proof is there that I would have any hesitation at
all in imposing the death penalty?
Garcia: No, ma'am.
Court: Do you think if the proof is not there that I would
have any hesitation at all in imposing life without parole?
Garcia: Yes, ma'am, I understand.
Court: So you think I would have some hesitation?
Garcia: Oh, no, no, ma'am.

X. Garcia pleads guilty and waives a jury for sentencing.
¶35. The next day, on January 18, 2017, Garcia pled guilty
to the capital murder of JT. Garcia gave the factual basis for
his plea. He claimed he went to the trailer that night with
Gray, who had asked for his help. Inside, he found five-yearold JT already bound by socks to a chair, face down. Garcia
proceeded to anally rape JT. After he ejaculated, he realized
JT had “defecated everywhere.” Garcia stated that he thought
JT was dead at that point. Only later did he realize she was
not dead, only unconscious. Because Garcia had not used a
condom, he tried to clean her off. Both men carried her to
the bathroom, and Garcia used the cap from a spray bottle
to dip water from the toilet tank to rinse her. With Gray's
help, Garcia hung JT from the neck using the socks that
had bound her to the chair. Gray held JT while Garcia tied
her to the shower window. Garcia then rinsed the backside
of her body and flipped her around to wash her front. He
left JT's body hanging in the trailer and went straight to the
apartment's laundry room because his clothes were covered
in fecal matter. Afterwards, he showered.
¶36. The State then presented the proof it would offer at trial.
Based on Garcia's admissions and the State's factual basis, the
trial court accepted Garcia's guilty plea.
¶37. Having waived his right to trial, Garcia proceeded to
waive his right to a jury for sentencing. Garcia explained his
decision:

Court: So you think—you don't, you're not hedging your
bets here thinking I would lean one way or the other?
Garcia: No, ma'am.
Court: Okay. And you understand I will make that decision
just like a jury would make it. It's just that the state, as I
explained to you, would only have to convince me.
Garcia: Yes, ma'am.
Court: Not 12 people. All right?
Garcia: Yes, ma'am, I understand.
Court: All right. And so you believe that you've had
sufficient time and sufficient advice to make this
decision of your own free will?
Garcia: Yes, ma'am.
¶38. The judge then questioned Garcia's counsel to ensure
Garcia had been given adequate time to consider his decision
and had based his decision on the proper factors. *960 Both
of Garcia's lawyers answered that they and Dr. Storer had
spoken at length with Garcia about what his decision would
mean and that Garcia was sure that he wanted to waive a jury.
After offering Garcia another opportunity to take more time to
make his decision, which he declined, the trial court granted
Garcia's motion to waive jury sentencing.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Julio Garcia v. State, 300 So.3d 945 (2020)

XI. The trial judge sentences Garcia to death.
¶39. The next week, the trial court held a three-day sentencing
hearing.
¶40. The State's presentation began with testimony from the
911 dispatcher who received the call from JT's mother that
JT was missing. A recording of the 911 call was played for
the judge. Next, the apartment manager testified. She testified
Garcia had reported to her on the night JT disappeared that a
little girl was missing. He was soaking wet, like he had just
gotten out of the shower. He also appeared very calm. The
next morning, after police found JT's body, Garcia returned
to the manager's apartment. Garcia told her that he had been
in that trailer and that police would likely find his prints and
accuse him of the crime.
¶41. Next, the State called Lieutenant Heather Dailey, who
responded to the crime scene after JT's body had been found.
She described the trailer as messy and dark, with items strewn
everywhere. She explained that JT had a shirt on but was
naked from the waist down. Crime Scene Technician Jessica
Kendzioreck arrived at the trailer an hour later. Before moving
JT's body, Kendzioreck took pictures of the trailer and JT's
body as it was found. These pictures were admitted into
evidence. FBI Agent Ty Breedlove searched the trailer that
day. He testified that, in his eight or nine years of experience,
the trailer “was one of the most disgusting crime scenes that
we've been to, full of cockroaches and rat feces and rotted
food and the smell stuck with us for a good two or three weeks.
¶42. Police Officer Grant Koon attended the autopsy of JT's
body, performed by the coroner the afternoon JT was found.
Officer Koon testified he photographed the body. He also
secured the samples taken from the body and submitted them
to the FBI for testing. Shane Hoffman, the FBI forensic
examiner who tested the samples also testified. He confirmed
the DNA from the vaginal and anal swabs matched Garcia's
DNA but excluded Gray's. The DNA on the socks tied to JT's
neck also excluded Gray's DNA but was a possible, albeit
inconclusive, match with Garcia's.
¶43. In addition to the DNA evidence, the State presented the
recording of Garcia's conversation on the way to the police
station. The State also played the recording of his interview
once he arrived. 9
9

At Garcia's request, the judge also admitted the
recording of his second interview with the police,

in which Garcia admitted helping Gray hang JT's
body but denied sexually assaulting her.
¶44. The FBI digital forensic examiner also testified about
the internet searches made through the seized Xbox. Search
terms included “toddler hentai,” 10 “very young,” “petit, tiny,
tween, crying, rape, anal, forced,” and “poor little thing,
kidnapped and raped, virginravisher.”
10

See supra n.5.

¶45. Finally, the State called Dr. Mark LeVaughn, State
Pathologist. Dr. LeVaughn was admitted as an expert
witness without objection from the defense. He testified
the appearance of JT's vagina and *961 anus indicated
injurious sexual penetration that would have caused JT pain
and trauma. Dr. LeVaughn gave his expert opinion that,
based on the crime-scene photos, autopsy photos, and autopsy
report, JT died from ligature strangulation or hanging. He also
testified that, based on his experience, the abrasions found
on JT's neck below her left ear were scratch marks—marks
typically left when someone tries to free herself from being
hanged.
¶46. Garcia called Dr. Storer to testify on Garcia's behalf.
Dr. Storer relayed that Garcia came from a broken home
with too many children, a history of domestic violence, and
some odd religious beliefs. In particular, Garcia had been
admitted to a child psychiatric hospital when he was eight
years old. From his records, it appears Garcia had been an
“extremely disturbed child.” Upon his release, Garcia was
supposed to be placed in a residential facility for treatment,
but his mother did not follow through. Garcia left school at
sixteen and was, at one point, homeless. 11 Dr. Storer also
relayed Garcia's history with sexually compulsive behavior,
including obsessive masturbation beginning at a prepubescent
age. He also experimented with bondage and sadomasochism
beginning at the age of eighteen. During one period, Garcia
would go to pornographic theaters and allow random men to
tie him up and have sex with him.
11

Garcia later obtained his GED.

¶47. Garcia also called Heather Hobby, Gray's ex-girlfriend
and the source of the tip that led to the search of Gray's
apartment. 12 Hobby testified about Gray's relationship with
Garcia—how Gray mistreated Garcia, how Garcia would do
anything Gray wanted, and how Gray took advantage of that.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Julio Garcia v. State, 300 So.3d 945 (2020)

12

Hobby testified she called the police when she
learned a little girl in Gray's apartment complex
was missing because Hobby knew Gray “had a past
with child pornography” and had been sexually
abusive toward her.

¶48. In closing, Garcia's counsel condemned the death penalty
generally and asked the judge for mercy.
¶49. After deliberation, the trial judge sentenced Garcia to
death. The judge noted that, in her opinion, Garcia “had not
been totally truthful” and had “never shown remorse.” The
judge found, regardless of whether Gray was or was not
involved, Garcia admitted he sexually assaulted and caused
the death of JT, and he is responsible for those actions.
¶50. The judge found two statutory aggravating
circumstances beyond a reasonable doubt. First, beyond
a reasonable doubt, the killing of JT occurred while
Garcia was engaged in the commission of a sexual battery.
Miss. Code Ann. § 99-19-101(5)(d) (Rev. 2015). Second,
beyond a reasonable doubt, the capital murder of JT was
especially heinous, atrocious, and cruel. Miss. Code Ann. §
99-19-101(5)(i) (Rev. 2015). The judge based her decision
on evidence including the child's age, size, injuries, pain
and suffering. [JT] was five (5) years of age, was four (4)
feet two (2) inches tall, and weighed fifty (50) pounds.
Garcia was a heavyset twenty-nine (29) year old man
at the time of the crime. [JT] had no means by which
she could have resisted Garcia or defended herself from
his actions based on her size and age. Further, she was
face down, tied to a chair with her head stuffed into the
seat and turned to the side. This occurred prior to the
sexual assault even further restricting any ability to protect
herself, avoid Garcia or avoid what was about to befall her.
Clearly she would have recognized and been aware of this
occurring, that there *962 was danger, and that something
terrible was about to occur. Moreover, the assault and
killing occurred in what is undisputedly a filthy trailer, with
roaches running rampant everywhere and a terrible stench.
[JT] was certainly able to see and know of these conditions
before being bound to the chair.
She was then penetrated both vaginally and anally while
still alive and tied to the chair. Garcia admits only to
the anal penetration, which caused her to defecate. The
undisputed evidence, however, is that his DNA was found
to be a match to the DNA located on the vaginal swabs, with
the person Garcia claims committed the vaginal penetration

being excluded on DNA testing of those swabs. Garcia's
DNA was also found to be a match to the DNA on the anal
swabs, the rectum swabs, the inner thigh and vulva swabs,
and the inside of the socks used to hang [JT]. The other
person was also excluded from each DNA comparison.
There is every reason to believe that [JT] was conscious
for at least some of the sexual assault. The length of time
she was tied to the chair is not specified in this record,
but was obviously long enough for both the vaginal assault
and the anal assault. Garcia admits the anal penetration
which, even accepting only his own testimony, had to
follow the vaginal penetration. Dr. LeVaughn testified to
the serious injuries inflicted to the vaginal and anal areas.
Those injuries involved the entire circumference of each
area as well as injuries to the internal portions of those
areas. Dr. LeVaughn also testified that the sexual assaults
would have caused [JT] pain and terror.
Finally, it is clear that death was not instantaneous upon
the hanging. There is evidence that [JT] was conscious at
some point during the hanging as there are scratches to
her left face/jaw area which Dr. LeVaughn testified are
consistent with someone attempting to free herself from a
ligature around her neck. [JT] suffered significant physical
and mental pain and suffering before her death. The sexual
battery and killing of [JT] was brutal, cold and torturous.
¶51. The judge also found “some mitigating factors have been
shown.” Garcia had no significant criminal history. And he
was twenty-nine years old at the time of the crime, “still
being a considered young person.” While Garcia claimed he
committed the crime under extreme emotional disturbance,
the judge found absolutely no evidence to support this alleged
mitigating circumstance. Finally, Garcia presented evidence
of his troubled childhood and extensive information about
the psychological evaluation performed by Dr. Storer. The
judge noted that it appeared to be somewhat mitigating that
his formative years “were far from good.” Further, while
Garcia no doubt had an anxiety disorder, this disorder had
nothing to do with the crime committed. And while Garcia
had ongoing mental-health issues as a child for which he did
not receive treatment, at age twenty-nine, Garcia had long
been old enough to seek help on his own.
¶52. In the end, the judge found the mitigating circumstances
insufficient to outweigh the aggravating circumstances. She
thereby sentenced Garcia to death. Following the denial of his
motion to vacate the sentence and conduct a new sentencing
trial, Garcia appealed his sentence only, having no right to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Julio Garcia v. State, 300 So.3d 945 (2020)

appeal his underlying capital-murder conviction based on
his guilty plea. See Miss. Code Ann. § 99-35-101 (Rev.
2015) (“[W]here the defendant enters a plea of guilty and
is sentenced, then no appeal from the circuit court to the
Supreme Court shall be allowed.”). But *963 see Miss.
Code Ann. § 99-19-105(1) (Rev. 2015) (“Whenever the death
penalty is imposed, and upon the judgment becoming final in
the trial court, the sentence shall be reviewed on the record by
the Mississippi Supreme Court.”).

Issues on Appeal
¶53. On appeal, Garcia raises eight sentence-related issues:
1. Must Garcia's death sentence be set aside because the
trial court unconstitutionally heard and decided material
pretrial motions at a time when Garcia was incompetent
to participate in the proceedings?
2. Was Garcia's waiver of a jury at his sentencing
proceeding invalid because the trial court improperly
denied his pretrial motion for change of venue?
3. Must Garcia's death sentence be set aside because the
trial court relied on unconstitutionally admitted evidence
to arrive at its sentencing decision?
4. Did the trial court reversibly err by finding Garcia
competent to waive a jury trial at sentencing?
5. Was Garcia deprived of a fair sentencing tribunal
because the sentencing judge should have disqualified
herself based on her pre-sentencing exposure to
confidential information that would ordinarily not
be known to a sentencing factfinder, her admitted
predisposition in this case, and her intent to consider
extra-record matters?
6. Was Garcia's death sentence imposed in violation of the
United States Constitution?
7. Must Garcia's death sentence be set aside as
disproportionate?
8. Does the cumulative effect of the trial court's errors in
this case mandate reversal of Garcia's death sentence?
Additionally, Mississippi Code Section 99-19-105(3)
mandates this Court review Garcia's death sentence and make
the following determinations:

(a) Whether the sentence of death was imposed under the
influence of passion, prejudice or any other arbitrary
factor;
(b) Whether the evidence supports the jury's or judge's
finding of a statutory aggravating circumstance as
enumerated in Section 99-19-101;
(c) Whether the sentence of death is excessive or
disproportionate to the penalty imposed in similar cases,
considering both the crime and the defendant; and
(d) Should one or more of the aggravating circumstances be
found invalid on appeal, the Mississippi Supreme Court
shall determine whether the remaining aggravating
circumstances are outweighed by the mitigating
circumstances or whether the inclusion of any invalid
circumstance was harmless error, or both.
Miss. Code Ann. § 99-19-105(3) (Rev. 2015).

Standard of Review
¶54. “We apply heightened scrutiny to an appeal from a
sentence of death.” Evans v. State, 226 So. 3d 1, 13 (Miss.
2017) (citing Corrothers v. State, 148 So. 3d 278, 293 (Miss.
2014)). “This higher level of scrutiny requires that all doubts
be resolved in favor of the accused because ‘what may be
harmless error in a case with less at stake becomes reversible
error when the penalty is death.’ ” Bennett v. State, 933 So.
2d 930, 939 (Miss. 2006) (quoting Balfour v. State, 598 So.
2d 731, 739 (Miss. 1992)).

*964 Discussion
I. COMPETENCY
Issue 1: Did the trial judge hear and rule on pretrial
motions during a time when Garcia was incompetent?
¶55. Garcia first argues his sentence must be vacated because
the trial court “unconstitutionally heard and decided pretrial
motions material to the sentencing proceedings under review
at a time when Garcia was incompetent to participate in the
proceedings.” Garcia claims the record “establishes without
dispute” that, due to his untreated anxiety disorder, Garcia
was incompetent to participate in open-court proceedings

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Julio Garcia v. State, 300 So.3d 945 (2020)

from the time of his arraignment in October 2015 until,
following treatment, he was found to be competent on January
12, 2017. Garcia argues that during this time, despite his
incompetency, the trial court ruled on motions significant to
his sentencing, such as his motion to change venue and his
motions to suppress. Citing Drope v. Missouri, 420 U.S. 162,
181, 95 S. Ct. 896, 43 L. Ed. 2d 103 (1975), Garcia argues
that, because the proceedings against him were not suspended
during the time of his incompetency, his sentence must be set
aside.
¶56. Garcia's argument principally rests on his presumption
that the trial court “adjudicated that Garcia was not
competent” at the November 22, 2016 hearing and only
found Garcia to be competent on January 12, 2017,
after Garcia received “restorative treatment.” Consequently,
Garcia insists, the trial court held important pretrial hearings
and made rulings during a time Garcia had been found
incompetent. But the record does not support this premise.
Instead, the record shows the opposite—the trial court
found Garcia to be competent during the entire trial-court
proceedings.
¶57. “The standard for competency to stand trial is whether
the defendant has ‘sufficient present ability to consult with his
lawyer with a reasonable degree of rational understanding,’
and ‘has a rational as well as a factual understanding of the
proceedings against him.’ ” Pitchford v. State, 240 So. 3d
1061, 1067 (Miss. 2017) (quoting Gammage v. State, 510 So.
2d 802, 803 (Miss. 1987)); see also Dusky v. United States,
362 U.S. 402, 402, 80 S. Ct. 788, 4 L. Ed. 2d 824 (1960)
(per curiam). And at the November 2016 hearing, following
Dr. Storer's testimony, the trial judge found Garcia met this
standard. She ruled, “based on the testimony, and of course
[her] observances of Mr. Garcia, it [did] not appear to [her]
that he is in any manner incompetent in terms of intellectual
functioning or his ability to understand and appreciate what is
going on or in fact in his ability to consult with his attorneys.”
¶58. The judge did, however, “have some question” about
how Garcia would handle the courtroom setting if the case
went to trial. Noting how Garcia appeared more relaxed when
properly medicated, she determined, “the better course [was]
to try to treat [his anxiety] first and see where [things stood]
in about thirty days.” At that point, the judge found Garcia
“competent but for that potential issue ....” (Emphasis added.)
On appeal, Garcia interprets the judge's ruling as finding
him incompetent to participate in open-court proceedings and
actually communicate with his lawyers during them. But this

interpretation is contrary to what the judge actually found. As
part of her ruling, the judge noted, “It appear[ed] to [her] that
clearly [Garcia] could participate during trial.” At the time
of the November 2016 hearing, the judge determined Garcia
“probably could make it through a trial, and ... probably
would do all right going through a trial.” But because “it
would take a great deal of patience on his part *965 and
his attorney's part,” and to prevent Garcia's anxiety from
potentially escalating to a point that he could not participate
at future trial, the judge ordered treatment and a reevaluation
in thirty days.
¶59. Garcia's interpretation is further contradicted by the
judge's comments on her prior ruling at the December
20, 2016 omnibus hearing. Notably, defense counsel never
objected to this hearing based on Garcia's incompetency.
And when discussing the issue of competency, the judge
asked Garcia's counsel, “[A]t this point, ... there's no claim of
incompetency to stand trial but for this anxiety issue we've
already addressed, and that's not really a competency issue
so much as a being able to pay attention and participate,
right?” (Emphasis added.) And counsel acknowledged,
“That's correct[.]”
¶60. At the January 12, 2017 hearing, in which the trial court
“follow[ed] up on Dr. Storer's earlier testimony concerning
the anxiety issue,” the judge emphasized that she never
found Garcia to be incompetent. Instead, “clearly the court
previously found that Mr. Garcia was competent with regard
to his mental functioning, his intellectual abilities, et cetera.”
But the judge did note “there was some concern with not
purely competence, but his ability to be in the courtroom and
to fully participate in his defense, to communicate with his
counsel, if he choose[s] to do so, to be able to testify.” Garcia
seizes on this comment, asserting that competency includes
the ability “to rationally communicate with his attorney about
the case” and “to testify in his own defense if appropriate.”
Hearn v. State, 3 So. 3d 722, 728 (Miss. 2008) (quoting
Martin v. State, 871 So. 2d 693, 697 (Miss. 2004)). But the
judge never found Garcia had met his burden to overcome the
presumption that he possessed these abilities. See Evans, 226
So. 3d at 14 (“The burden of proof rests on the defendant to
prove that he is mentally incompetent to stand trial.” (citing
Richardson v. State, 767 So. 2d 195, 203 (Miss. 2000))).
Rather, the record shows the judge was concerned about—
and addressed—the possibility that Garcia might lose these
abilities during a future jury trial if he was not properly
medicated.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Julio Garcia v. State, 300 So.3d 945 (2020)

¶61. Specifically, the trial court never found what Garcia now
asserts on appeal—that, from the time of his arraignment
in October 2015 until Dr. Storer testified a second time in
January 2017, Garcia had been incompetent to participate in
the proceedings that took place during that time period.
¶62. As to the trial court's actual finding—that Garcia
was competent during the entire trial-court proceedings—
we find no abuse of discretion. See Martin, 871 So. 2d at
698 (applying abuse-of-discretion standard of review to a
competency determination). “We will reverse a trial court's
competency determination only if it is ‘manifestly against the
overwhelming weight of the evidence.’ ” Dickerson v. State,
175 So. 3d 8, 15 (Miss. 2015) (quoting Hearn, 3 So. 3d at
728). And here, contrary to Garcia's claim, the trial court's
finding Garcia to be competent was not manifestly against the
overwhelming weight of the evidence.
¶63. At the November 2016 hearing, Dr. Storer did testify that
his preliminary opinion was that Garcia was incompetent. But
this testimony did not go “unrebutted” as Garcia suggests.
Instead, the trial judge questioned Dr. Storer carefully about
the bases of his opinion, one being the reported panic attack
Garcia suffered during the July 26, 2016 suppression and
change-of-venue hearing. The judge asked Dr. Storer if he
was aware that Garcia exhibited no symptoms during the
court proceeding that morning. Instead, he reported to his
attorneys as they were breaking for lunch *966 that he did
not feel well. It came to light that Garcia had not been given
his medication that morning, so the jail nurse was called to see
Garcia during the break. After being seen and treated, Garcia
told the court he felt better.
¶64. Dr. Storer had also based his opinion on Garcia's initial
stated preference for the death penalty over life without
parole. Dr. Storer had testified he was concerned Garcia's
preference was evidence his anxiety disorder had impaired
his decision-making ability. But when questioned by the trial
judge, Dr. Storer admitted this was only a concern. He could
not say that Garcia's anxiety impaired his rational decisionmaking ability to a reasonable degree of psychological
certainty.
¶65. The judge also asked Dr. Storer about his comment
that Garcia had responded appropriately to the questions
posed by the court and that Garcia fully understood what
was going on. Dr. Storer reiterated that Garcia's intellectual
functioning was fine and that his anxiety disorder “is not a
severe and persistent mental illness of the type that would

alter someone's perception of reality.” Instead, Dr. Storer
testified that Garcia's anxiety “shuts him down to where he's
not paying attention and listening and processing information,
and he's not able to ask questions of his attorneys as
appropriate or point things out.” But balanced against Dr.
Storer's opinion was the trial judge's own observations of
Garcia in court and her own careful questioning of Garcia at
each hearing to ensure he understood what was going and had
a meaningful opportunity to communicate with his counsel.
We have carefully reviewed these proceedings and find no
evidence Garcia had been unable to understand what was
going on or consult with his counsel.
¶66. In other words, the transcript belies Garcia's assertion
that “without dispute” he was actually incompetent during
his change-of-venue and evidence-suppression hearings.
Criminal defendants—including those charge with capital
offenses—are presumed competent, with “[t]he burden of
proof rest[ing] on the defendant to prove that he is mentally
incompetent to stand trial.” Evans, 226 So. 3d at 14 (citing
Richardson, 767 So. 2d at 203). Here, contrary to Garcia's
assertion, the trial court never found Garcia had met that
burden. And the record does not show her finding Garcia
competent was manifest error. Therefore, the trial court
did not reversibly err by failing sua sponte to suspend the
proceedings against Garcia from his arraignment until Dr.
Storer submitted on January 12, 2016, his final report finding
Garcia competent.

Issue 4: Did the trial judge err by finding Garcia
competent to waive a jury for sentencing?
¶67. Garcia raises a second competency argument related
specifically to his competency to waive his right to a jury
trial at sentencing. Despite his own mental-health expert's
testifying on January 12, 2016, that Garcia was competent,
Garcia now argues the trial court erred by finding him
competent to waive his right to jury sentencing.
¶68. Garcia seemingly dismisses Dr. Storer's finding of
competency because it was conditioned on Garcia's receiving
proper medical treatment. But at no point does he argue that
he had been incompetent on January 18, 2017—the day he
waived his right to a jury for sentencing—because he had
not received proper medication. Garcia also contends the trial
court erred by largely rejecting Dr. Storer's testimony at the
November 16, 2016 hearing that Garcia's anxiety disorder
impaired his ability to make rational decisions, as evidenced

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Julio Garcia v. State, 300 So.3d 945 (2020)

by his stated preference to live on *967 death row instead of
with the general prison population. While acknowledging his
preference changed following treatment, 13 Garcia attributed
this change to continued availability of treatment. But Garcia
does not claim lack of proper treatment contributed to his
decision to waive jury sentencing.
13

Garcia fails to acknowledge, however, that Dr.
Storer could not testify to a reasonable degree
of psychological certainty that Garcia's anxiety
disorder impaired his rational decision-making
ability. Rather, Dr. Storer was merely concerned,
which was largely the reason he suggested
treatment.

¶69. Instead, citing the Mississippi Court of Appeals’ decision
in Magee v. State, 752 So. 2d 1100, 1102 (Miss. Ct.
App. 1999), Garcia argues—in his own words—that the
“capacity for rational decision making” is “another aspect of
competency.” 14 He contends his decision to waive a jury
for sentencing was irrational because his “sole concern” was
avoiding the jury-selection process. As support, he zeroes in
on one question he asked during the hearing:
Garcia: Just one question, ma'am. If I waiver [sic] my
sentencing Jury, would a Jury still be selected?
Judge: No.
Garcia: Okay. That's why I was asking.
Garcia claims on appeal that this question “is that of a person
who is so controlled by his fear of having an anxiety attack
if his medications fail him in a courtroom full of people
during the jury selection process that he is driven by his
mental illness to do anything to avoid the possibility that
could happen.” But even under heightened scrutiny, and
giving Garcia the benefit of any doubt, the record does not
support his contention that the trial court erred by finding him
competent. Garcia bore the burden to show incompetency by
a preponderance of the evidence. Ross v. State, 954 So. 2d
968, 1007 (Miss. 2007) (“Where there is a serious question
about the sanity or competency of a defendant to stand trial, ‘it
naturally devolves upon the defendant to go forward with the
evidence to show his probable incapacity to make a rational
defense.’ ” (quoting Emanuel v. State, 412 So. 2d 1187,
1189 (Miss. 1982))). And, here, Garcia's isolated procedural
question does not tip the scale against the trial judge's ruling.

14

Here is what the Court of Appeals actually held in
Magee:
The standard of competency to enter a guilty plea
is the same as that for determining competency
to stand trial. Godinez v. Moran, 509 U.S. 389,
399, 113 S. Ct. 2680, 125 L. Ed. 2d 321 (1993);
Caylor v. State, 437 So. 2d 444, 447 (Miss.
1983). All that the State must demonstrate as to
competency to stand trial is that the defendant
has a rational understanding of the charges
against him and the ability to assist his lawyer in
preparing his defense. Godinez, 509 U.S. at 396,
113 S.Ct. 2680 ...; Caylor, 437 So. 2d at 447.
Magee, 752 So. 2d at 1102. In other words, the
standard for competency to waive the right to a
jury trial is the same standard of competency to
stand trial. It is the Dusky standard—the “sufficient
present ability to consult with his lawyer with a
reasonable degree of rational understanding” and
“a rational as well as factual understanding of the
proceedings against him.” Dusky, 362 U.S. at 402,
80 S.Ct. 788.

¶70. Instead, the trial judge's finding that Garcia was
competent is supported not only by her own observations of
Garcia's ability to communicate with counsel and participate
in the proceedings against him over the course of more than a
year but also by Garcia's own expert. Indeed, Dr. Storer found
Garcia competent after interviewing him in a courtroom in
front of his entire defense team and a dozen officers convened
to simulate as closely as possible a jury-trial environment.
Dr. Storer created this environment to ensure Garcia's *968
social-anxiety issues did not factor in his decision to waive
his right to a jury sentencing.
¶71. After review, we find the judge's competency finding
well supported. There is no reversible error on either
competency-related claim.
II. CHANGE OF VENUE
Issue 2: Did the trial court abuse its discretion
by denying Garcia's motion to change venue?
¶72. As his second issue, Garcia argues that his waiver
of a jury at sentencing was invalid because the trial court
improperly denied his pretrial motion for a change of venue.
Garcia argues he waived his right to a sentencing jury out of
necessity because the trial judge ruled his jury would come

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Julio Garcia v. State, 300 So.3d 945 (2020)

from Harrison County, “a place where there was personal
hatred against him.”
¶73. The record, however, does not support that his waiver
of a sentencing jury was forced or even connected to the
denial of his motion to change venue months earlier. In the
December 2016 pretrial conference, the trial judge indicated
her motion-to-change-venue decision was not set in stone.
Garcia was free to raise the venue issue again based on
changing circumstances. Garcia did not renew his motion
—despite now arguing on appeal that post-venue-hearing
circumstances supported the need to change venue. Instead,
Garcia chose to waive his right to a jury at sentencing.
¶74. Further, before accepting Garcia's waiver of a jury at
sentencing, the trial judge specifically advised Garcia that
he would be waiving his right to challenge her jury-related
pretrial rulings, including the denial of his motion to change
venue. She warned, “You're giving up the right, all these
motions we've heard about the venire and possible media
coverage, all of that stuff, basically all those motions would
go by the wayside as to any kind of fair and impartial jury.
You understand that?” Garcia responded that he understood.
¶75. On appeal, Garcia argues the trial judge's advice
contained legal error. Citing cases from other jurisdictions, he
argues that his waiver of a jury at sentencing did not operate
as a waiver of the right to challenge on appeal the denial
of his motion to change venue. State v. Kahey, 436 So. 2d
475, 481 (La. 1983) (holding that the waiver of trial by jury
did not moot the change-of-venue issue); State v. Johnson,
318 N.W.2d 417, 421 (Iowa 1982) (same); Commonwealth v.
Dobrolenski, 460 Pa. 630, 334 A.2d 268, 271 (1975) (same).
¶76. In their briefs, both Garcia and the State claim Byrom v.
State, 863 So. 2d 836, 851 (Miss. 2003), speaks to the waiver
issue. But in Byrom, also a death-penalty case, the defendant
did not plead guilty, as Garcia did, but instead was tried by
a jury. Only after a jury found her guilty did the defendant
waive her right to a jury at sentencing. Id. at 845. On appeal
of both the jury's verdict and the trial court's sentence, Byrom
argued the trial court erred by denying her motion to change
venue. Id. at 851. But it came to light that Byrom's counsel
erroneously believed a motion to change venue had been
denied, though in reality the motion, while discussed in open
court, had never been filed. Id. Because no motion was ever
filed or brought to a hearing, this Court found the issue of
venue procedurally barred. Id. We also found her claim lacked
merit. Id.

¶77. Byrom was based on a waiver principle not at issue here
—the failure to obtain a ruling on a motion. Id. Here, Garcia
obtained a ruling. His motion to change venue was denied.
But he then proceeded to waive his right to a jury both at trial
and at sentencing. So Byrom is silent on *969 what impact
Garcia's waiver of a jury had on his ability to appeal the denial
of his motion to change venue.
¶78. We do note the Mississippi Court of Appeals has
addressed this issue in a non-death-penalty case. In Grissom
v. State, 66 So. 3d 1280, 1282 (Miss. Ct. App. 2011), the
court held that the defendant was procedurally barred from
raising in a motion for postconviction relief the claim that
the trial court erred by denying his motion to change venue.
The bar applied because the defendant “chose to plead guilty
and, thus, did not have a trial.” Id. We find the Court of
Appeals’ reasoning sound. Because Garcia chose to plead
guilty, waiving his right to a jury trial, and because Garcia
additionally waived his right to a jury at sentencing instead
of renewing his motion to change venue, we find this issue is
procedurally barred.
¶79. That said, in Byrom, we proceeded to address the
merits of the capital defendant's venue claim despite the clear
procedural bar. Byrom, 863 So. 2d at 851. We do the same
here, additionally finding the trial judge did not abuse her
discretion by denying Garcia's motion to change venue.
¶80. “A motion for a change of venue is not automatically
granted in a capital case.” Id. Even in a capital case, “[t]he
decision to grant a change of venue rests soundly in the
discretion of the trial judge.” King v. State, 960 So. 2d 413,
429 (Miss. 2007) (citing Howell v. State, 860 So. 2d 704,
718 (Miss. 2003)). “This Court will not disturb the ruling of
the trial court where the sound discretion of the trial judge
in denying a change of venue was not abused.” Id. (citing
Howell, 860 So. 2d at 718).
¶81. As required by Mississippi Code Section 99-15-35,
Garcia's motion to change venue contained three sworn
affidavits by Harrison County citizens that Garcia could
not receive a fair and impartial trial. He also attached
copies of media reports. At the change-of-venue hearing, the
State acknowledged Garcia's motion complied with Section
99-15-35, creating “a presumption ... that an impartial jury
is unattainable.” Barfield v. State, 22 So. 3d 1175, 1183
(Miss. 2009) (citing Welde v. State, 3 So. 3d 113, 118
(Miss. 2009); Miss. Code § 99-15-35 (Rev. 2007)); see

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Julio Garcia v. State, 300 So.3d 945 (2020)

also Holland v. State, 705 So. 2d 307, 336 (Miss. 1997)
(“In addition [to affidavits], adverse and prejudicial pretrial
publicity may demonstrate the inability to obtain a fair jury in
that venue.” (citing Johnson v. State, 476 So. 2d 1195, 1211
(Miss. 1985))).
¶82. But this presumption is rebuttable. Johnson, 476 So.
2d at 1211. To that end, the trial court proposed and Garcia
and the State agreed to putting the pretrial-publicity question
to a jury venire that had been summoned but not chosen for
another trial. See id. (acknowledging that the State may rebut
the presumption by demonstrating through voir dire that an
impartial jury is attainable); see also Welde, 3 So. 3d at 118
(“The State may rebut the presumption that an impartial jury
cannot be obtained ‘by proving from voir dire that the trial
court impaneled an impartial jury.’ ” (quoting Holland, 705
So. 2d at 336)). So on August 16, 2016, the trial judge, the
State, and Garcia questioned a pool of thirty potential jurors
summoned for an unrelated trial but not selected to serve on
the jury. Of the thirty, nineteen acknowledged having known,
heard, or read something about Garcia's case. After general
questions were asked, fourteen mock jurors were asked to stay
for additional detailed questions.
¶83. In making her ruling, the trial court found the
“questioning of the jurors in this matter to be the most helpful
to the determination of this Motion [to change venue].”
Specifically,

*970 There were over one-third of
the total jurors who indicated that
they had never heard or seen anything
concerning this case. Of those fourteen
(14) questioned more fully, half had
no knowledge of the case. Only three
(3) of the fourteen (14) questioned
in detail indicated having formed any
opinion and only two (2) of those
three (3) indicated that they would
not be able to set that opinion aside.
In fact, one (1) of those two (2)
would not have been a proper juror
for any case. After being told about
the burden of proof being on the State
and upon being asked in general if
the State proved in any case that a
crime had been committed but failed to
prove that a defendant had committed

it whether the jurors would find that
defendant not guilty, this particular
juror indicated that he would not as he
believed that if someone was present
or knew about the crime or such, then
that person was also guilty.

The trial judge concluded that “the questioning of the jurors
indicates to the Court that the publicity has not been so
pervasive that everyone has either become exposed to it or
recalls it. It also indicates that a fair and impartial jury can
be seated, given proper and thorough voir dire.” We find
no abuse of discretion in this finding. As in Welde, only
one person answered he could not apply the presumption of
innocence. See Welde, 3 So. 3d at 119 (affirming the trial
court's denial of a motion to change venue partly because
“[o]nly one prospective juror stated that he had formed a fixed
opinion”).
¶84. Garcia argues the trial judge should have never
conducted a voir dire because his motion demonstrated that
the presumption he could not receive a fair trial in Harrison
County due to the media coverage was irrebuttable. “While
the presumption may be rebutted during voir dire,” this Court
has found that “ ‘in some circumstances pretrial publicity can
be so damaging and the presumption so great, that no voir dire
can rebut it.’ ” White, 495 So. 2d at 1349 (quoting Johnson,
476 So. 2d at 1211). This Court “ha[s] set forth certain
elements which, when present would serve as an indicator to
the trial court as to when the presumption is irrebuttable.” Id.
These elements are
(1) Capital cases based on considerations of a heightened
standard of review;
(2) Crowds threatening violence toward the accused;
(3) An inordinate amount of media coverage, particularly
in cases of
(a) serious crimes against influential families;
(b) serious crimes against public officials;
(c) serial crimes;
(d) crimes committed by a black defendant upon a white
victim;
(e) where there is an inexperienced trial counsel.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Julio Garcia v. State, 300 So.3d 945 (2020)

Id. In her order denying Garcia's motion to change venue, the
trial judge considered each these factors. She acknowledged
the fact Garcia's case was capital. But she found a lack
of evidence of threats of violence on Garcia. Further, she
determined there had not been “an inordinate amount” of
media coverage.
¶85. In particular regarding media coverage, the trial judge
acknowledged that “[t]here was a great deal of coverage at the
time of the subject crime, arrest of [Garcia,] and preliminary
hearing.” But then the coverage severely dropped off. “There
were then a few articles the following year and only one
(1) this year prior to the hearing on this Motion.” Moreover,
while “[t]he subject crime is certainly serious, ... there is
no allegation that it was committed against a member of
an influential family or a public official. Nor is there any
indication that it is a serial crime. The victim was black and
the Defendant is *971 Hispanic.” Finally, the trial judge
noted that Garcia's “[t]rial counsel is experienced.” For these
reasons, the trial judge concluded the media coverage had
not been “an inordinate amount.” Specifically, she found the
coverage had not reached the saturation level found to create
an irrebuttable presumption of partiality in Fisher v. State,

been “an inordinate amount” of media coverage. He asserts
that “throughout the process[,] threats of violence toward
the accused from the community, and indeed toward his
counsel, have been present and ubiquitous.” 16 He cites
various articles as demonstrating a community demand for
his death. 17 But as evidenced by the record, the trial judge
carefully considered each article Garcia submitted. 18 And
from these articles she detected no present and ubiquitous
threats of violence. Only one article reported the jail warden's
saying Garcia had not been housed with the *972 general
population due to the high probability of threats against
inmates accused of sex crimes against children and internal
and external threats. And this one article, standing alone, is
insufficient to show the trial judge abused her discretion.
16

We note that counsel's comment about receiving
threats was made at sentencing, not at the motion
to change venue. And Garcia never renewed
his motion to change venue based on any new
evidence, despite being advised that he could.

17

At oral argument, Garcia's counsel also repeatedly
referenced a petition calling for Garcia to be
sentenced to death. But Garcia's counsel admitted
this undated petition had been filed after Garcia
pled guilty. And even so, Garcia did not renew his
motion to change venue. Instead, he proceeded to
waive a jury at sentencing.

18

In her order, the trial judge observed,
[Garcia] also submitted a large number of media
reports. The Court has reviewed each of those.
Only one (1) article for 2016 was submitted and
that article followed an earlier motion hearing
in this case. Eight (8) articles from 2015 were
submitted. Three (3) of those focused on the
one (1) year anniversary of the date of the
subject crime; one (1) related to the victim's
seventh birthday; two (2) reported on [Garcia's]
arraignment; one (1) reported on the setting of
the trial date in this cause; one (1) reported on
the victim's cousin beginning a group to help
victim's families; and one (1) related to a second
arrest of a person of interest in this cause who has
not been charged with the crime in this cause.
The majority of the articles are from July
and August of 2014, just after the subject
crime occurred. The initial articles concern the
victim's disappearance and make no mention of

481 So. 2d 203, 217-23 (Miss. 1985). 15
15

The trial judge here found,
This is particularly true when one considers
that there were approximately thirteen (13)
homicides in Harrison County in 2014, seven (7)
of those being in Gulfport (including the subject
crime). Each of those homicides also received
a great deal of media coverage at the time of
the occurrence, the arrest and the preliminary
hearing. That is, this case was neither the
only homicide in 2014, nor the only homicide
receiving media coverage. To be sure, the fact
that the victim in this case is a child separated
it somewhat from other homicides and did draw
attention from those outside of this geographic
area. However, there has certainly not been
the media saturation which occurred in Fisher.
Nor has there been any indication of any prior
convictions of Defendant or any indication that
he has ever been involved in any similar crime
as also occurred in Fisher.

¶86. On appeal, Garcia is dismissive of the trial judge's
findings both that there was a lack of evidence of threats
of violence made toward Garcia and that there had not

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

Julio Garcia v. State, 300 So.3d 945 (2020)

[Garcia] who had not yet even been identified
as a person of interest. Later articles report
on [Garcia's] arrest, the cause of death, and
[Garcia's] preliminary hearing. The later articles
in 2014 contain a number of details as to cause of
death, [Garcia's] purported statements, and DNA
testing.
Many of the articles are the same, simply having
been published by different media sources. A
number of articles also report on the fact that
[Garcia] was first arrested and charged with
burglary of the trailer in which the victim was
found and his purported statement admitting to
that burglary. Many of the details in the articles
appear to have come from the testimony adduced
at the preliminary hearing in this case.
¶87. This Court has also carefully reviewed the media
reports submitted to the trial court. And despite Garcia's
characterizations, the remaining articles do not demonstrate
the threat of community violence was such that no voir dire
could rebut the presumption of impartiality. Nor do they,
as Garcia also argues on appeal, demonstrate a saturation
of media coverage such that the denial of his motion
to change venue was reversible error. Even under the
heightened scrutiny of a capital case, the trial judge did not
abuse her discretion when she evaluated the White factors
and concluded the media coverage was not such that the
presumption a Harrison County jury could not be impartial
was irrebuttable.
¶88. Because the State rebutted the presumption of unfairness
through the agreed-upon mock voir dire—demonstrating an
impartial jury could be drawn from Harrison County 19 —the
trial judge did not abuse her discretion by denying Garcia's
motion to change venue. See Welde, 3 So. 3d at 119.
19

At oral argument, Garcia's counsel insinuated that,
because the jurors who had been questioned knew
they would not in fact have to serve on a deathpenalty case, their answers may not have been
truthful. But this newly raised speculation ignores
that Garcia's lawyers agreed to this approach. And
it cuts both ways because the opposite could be
just as easily argued—that these fourteen people's
answers were more truthful because none had
incentive to lie to escape jury service for a lengthy
capital-murder trial for which they may have been
sequestered.

III. EVIDENCE
Issue 3: Did the trial court rely on
“unconstitutionally admitted evidence”
when making its sentencing decision?
¶89. As his third claimed error, Garcia argues the trial
judge relied on “unconstitutionally admitted evidence” when
making her sentencing decision. Specifically, he challenges
the admission of the Xbox internet searches and his
statements to the police, which he tried to suppress pretrial.
He also challenges the admission of the State pathologist's
expert testimony, to which he never objected. “The admission
of evidence ... is left to the sound discretion of the trial judge.”
Havard v. State, 928 So. 2d 771, 797 (Miss. 2006) (quoting
Minor v. State, 831 So. 2d 1116, 1120 (Miss. 2002)). After
review, we find the trial judge did not abuse her discretion by
admitting these three categories of evidence.

A. Internet Searches on Garcia's Xbox 360
¶90. Garcia first argues the trial judge erred by denying his
motion in limine to exclude evidence of the internet searches
conducted through his Xbox 360. At the motion hearing, an
FBI forensic examiner testified these searches—which were
of a sexually explicit and violent nature and involved terms
describing young females—had originated from the Xbox
seized from Garcia's bedroom and had been conducted in the
week before JT's murder. Garcia objected to the admission
of the searches based on Mississippi Rule of Evidence 901,
which requires evidence be authenticated before admission.
He also objected, citing Mississippi Rule of Evidence 403.
This rule grants trial courts discretion to exclude otherwise
admissible evidence if its probative value is outweighed by
the danger of unfair prejudice.
*973 ¶91. In claiming the searches had not been properly
authenticated under Rule 901, Garcia likened this evidence to
the social-media messages purportedly sent by the defendant
in Smith v. State, 136 So. 3d 424 (Miss. 2014). In Smith,
this Court ruled the messages were not properly authenticated
as being what they purported to be—messages created and
sent by the defendant. The primary concern in Smith was
the potential for fabrication—that is, creating a fake socialmedia account using someone else's name and masquerading
as that person. Id. at 432-33. “Because of the special concerns
regarding fabrication,” we ruled that “ ‘the fact that an

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

Julio Garcia v. State, 300 So.3d 945 (2020)

electronic communication on its face purports to originate
from a certain person's social networking account is generally
insufficient standing alone to authenticate that person as
the author of the communications.’ ” Id. at 433 (quoting
Campbell v. State, 382 S.W.3d 545, 550 (Tex. Ct. App.
2012)).
¶92. Here, by contrast, we are not dealing with an electronic
communication purporting to originate from Garcia's socialmedia account. We are dealing with electronic searches
indisputably conducted on Garcia's electronic device. And
when it comes to the authentication of internet searches,
courts have found that evidence that searches were conducted
on the defendant's device is sufficient to make a prima facie
case of authentication. Saunders v. State, 241 So. 3d 645,
648-49 (Miss. Ct. App. 2018) (holding that the screen shot of
a text message found on a phone in the defendant's possession
met a prima facie showing of authenticity); see also Hoey
v. State, 2017 Ark. App. 253, 519 S.W.3d 745, 757-58
(2017) (holding that testimony that internet searches came
from two smart phones found in the defendant's possession
was sufficient to authenticate them); Holzheuser v. State,
351 Ga.App. 286, 828 S.E.2d 664, 668-69 (2019) (holding
that images and notes found on the defendant's personal
cell phone were sufficiently authenticated); United States
v. Lubich, 72 M.J. 170, 175 (C.A.A.F. 2013) (holding that
a prima facie showing of authenticity had been made by
evidence that incriminating internet searches were made
using defendant's account). Indeed, in Smith, this Court
surmised that a social-media message potentially could be
authenticated by evidence “that the communication originated
from the purported sender's personal computer ....” Smith,
136 So. 3d at 433.
¶93. As the trial judge ruled, the possibility that some of the
searches on the Xbox could have been conducted by someone
else besides Garcia goes to the weight of this evidence, not
its authenticity. 20 See Holzheuser, 828 S.E.2d at 668 (“To
the extent that Holzheuser argues that the information on his
phone could have been the product of a different person's
use of his phone without his knowledge or permission, this
argument goes to weight, not authenticity.”); McLemore
v. State, No. 02-15-00229-CR, 2016 WL 4395778 (Tex.
Ct. App. Aug. 18, 2016) (“The possibilities that someone
accessed the data before appellant owned the phone or while
he owned it but was not in possession of it are alternative
scenarios that the jury was entitled to assess upon the
admission of the evidence.”); Lubich, 72 M.J. at 175 (noting
that, once Rule 901’s standard had been met, the defendant

had the opportunity to cross-examine the government expert
on “the possibility that someone else was sitting at a computer
that [the defendant] *974 previously logged onto and
entered the information without her knowledge”).
20

At his guilty-plea hearing, Garcia admitted
making some of the searches, but he claimed he
accidentally typed “tween” instead of “teen.” Other
searches he suggested were made by Gray, who
Garcia claimed had borrowed his Xbox that week.

¶94. As this Court has said, “A party need only make a
prima facie showing of authenticity, not a full argument on
admissibility. Once a prima facie case is made, the evidence
goes to the jury and it is the jury who will ultimately determine
the authenticity of the evidence, not the court.” Walters v.
State, 206 So. 3d 524, 535 (Miss. 2016) (quoting Sewell v.
State, 721 So. 2d 129, 140 (Miss. 1998)). In other words, the
State was “not required to rule out all possibilities inconsistent
with authenticity.” Jones v. State, 466 S.W.3d 252, 262 (Tex.
Ct. App. 2015).
¶95. The State made a prima facie showing that the internet
searches were what the State claimed them to be—internet
searches made on Garcia's Xbox. The State was not required
to rule out the possibility that the internet searches could have
been conducted by someone other than Garcia. Therefore,
the trial judge did not abuse her discretion by finding this
evidence had been sufficiently authenticated.
¶96. Turning to Rule 403, the trial judge did not abuse her
discretion by finding the probative value of the searches was
not outweighed by any unfair prejudice. See M.R.E. 403.
While Garcia tries to discount the probative value—namely
through his denial he was the one who made the searches
—the probative value was certainly high. The searches were
for child pornography that mimicked the acts Garcia admitted
carrying out. And the searches were made just days before
Garcia acted. So any claim of unfair prejudice is unfounded
under this highly discretionary rule.
¶97. Also unfounded is Garcia's claim, raised for the first
time on appeal, that the trial judge should have excluded
the searches based on Mississippi Rule of Evidence 404(b)
(1), which deems “[e]vidence of a crime, wrong, or other
act ... not admissible to prove a person's character in order
to show that on a particular occasion the person acted in
accordance with the character.” M.R.E. 404(b)(1). Not only
may the Xbox evidence be considered intrinsic to the charged
sexual-battery-based murder, but what Garcia is now calling

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

Julio Garcia v. State, 300 So.3d 945 (2020)

inadmissible character evidence falls well within obviously
applicable exceptions to Rule 404(b)(1), found in Rule 404(b)
(2). Under 404(b)(2), “[t]his evidence may be admissible for
another purpose, such as proving motive, opportunity, intent,
preparation, plan, knowledge, identity, absence of mistake,
or lack of accident.” M.R.E. 404(b)(2). The internet searches
certainly go to the issues of motive, intent, preparation, and
plan.

B. Garcia's Voluntary Statement to Police
¶98. Next, Garcia argues the trial judge violated his Fourth,
Fifth, Sixth, and Fourteenth Amendment rights when she
denied his motion to suppress his statements to the police and
their fruits. Garcia argues that the first recorded conversation
in the police car with Detective Fulks violated his Miranda
rights. See Miranda, 384 U.S. at 444, 86 S.Ct. 1602. He
further reasons that information from the car conversation
was used to gather more information in the formal police
interview, before which he was advised of and waived his
Miranda rights. And it was his admissions during the police
interview that formed the probable-cause basis for the search
warrant of his apartment. Therefore, he concludes, both
statements and the evidence from his apartment should have
been suppressed. See Marshall, 584 So. 2d at 438 (explaining
that the “fruit of the poisonous tree”—or exclusionary rule
—“prohibits the introduction of derivative evidence” that is
the *975 product of evidence obtained in violation of the
Fourth Amendment (quoting Murray, 487 U.S. at 536, 108
S.Ct. 2529)).
¶99. But, as the trial court found, for Miranda rights to attach,
Garcia had to have been “in custody” while on his way to
the police station. Hopkins v. State, 799 So. 2d 874, 878
(Miss. 2001) (citing Miranda, 384 U.S. at 444, 86 S.Ct. 1602;
Oregon v. Mathiason, 429 U.S. 492, 97 S. Ct. 711, 50 L.
Ed. 2d 714 (1977); Moore v. State, 344 So. 2d 731 (Miss.
1977)). “The test for whether a person is in custody is whether
a reasonable person would feel he was in custody and depends
upon the totality of the circumstances,” and

[t]he factors to be considered include
the place and time of the interrogation,
the people present, the amount of
force or physical restraint used by
the officers, the length and form of
the questions, whether the defendant

comes to the authorities voluntarily,
and what the defendant is told about
the situation.

Id. (citing Hunt v. State, 687 So. 2d 1154, 1160 (Miss.
1996); Porter v. State, 616 So. 2d 899, 907 (Miss.
1993)). Commander Brown testified Garcia approached him
voluntarily during the search of Gray's apartment. Detective
Fulks then testified Garcia voluntarily agreed to accompany
Fulks—who at the time was a patrol officer—to the police
station to speak with detectives. When Garcia got into the
back of the police car, he was not restrained. He was free
to leave and could have asked Detective Fulks to pull over
or turn around at any point. Garcia was not delivered to the
sally port like other suspects, and he was not interrogated.
Having watched the video of the car ride, the trial court
noted it was Garcia who initiated the conversation and
any questions Detective Fulks asked dealt with a general
conversation between the two—they were not investigatory.
So the evidence supports the trial court's determination that
Garcia was not in custody.
¶100. On appeal, Garcia does not contend he was in custody
when he voluntarily got into the police car. Rather, he
suggests that, as soon as he mentioned he had rummaged
through the trailer days before, Detective Fulks should have
Mirandized him. But Detective Fulks testified that, during the
car ride, he had no reason to suspect Garcia had committed
a separate crime of burglary based on his statement about his
fingerprints. At that point, Detective Fulks was simply giving
a witness a ride to the police station as part of the ongoing
investigation of JT's murder.
¶101. Garcia's claim that the car ride somehow turned into
a custodial investigation of his burglary of the trailer has
no basis. As the United States Supreme Court explained
in Miranda, “Our decision is not intended to hamper the
traditional function of police officers in investigating crime. ...
General on-the-scene questioning as to facts surrounding a
crime or other general questioning of citizens in the factfinding process is not affected by our holding.” Miranda,
384 U.S. at 477, 86 S.Ct. 1602 (citation omitted). Garcia's
statement was made while a patrol officer voluntarily
transported him to the police station as part of the fact-finding
process. He was not in custody. Therefore, the trial court did
not err by denying his motion to suppress the video of the car
ride and its fruits.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

Julio Garcia v. State, 300 So.3d 945 (2020)

C. The State Pathologist's Expert Testimony
¶102. Finally, Garcia argues for the first time on appeal that
Dr. LeVaughn's testimony about JT's cause of death violated
his constitutional right to confront his accuser. See U.S. Const.
amend VI. Relying on *976 Bullcoming v. New Mexico,
564 U.S. 647, 652, 131 S. Ct. 2705, 2710, 180 L. Ed. 2d
610 (2011), Garcia claims Dr. LeVaughn's testimony was
improper “surrogate testimony” for Dr. McGarry, the coroner
who performed JT's autopsy.
¶103. Garcia admits he did not object to Dr. LeVaughn's
testimony. And “[i]f no contemporaneous objection is made,
the error, if any, is waived. This rule is not diminished in a
capital case.” Ronk v. State, 172 So. 3d 1112, 1134 (Miss.
2015) (quoting Cole v. State, 525 So. 2d 365, 369 (Miss.
1987)).
¶104. Still, Garcia asks this Court to review for plain error.
“Under the plain-error doctrine, [this Court] can recognize
obvious error which was not properly raised by the defendant
and which affects a defendant's fundamental, substantive
right.” Ambrose v. State, 254 So. 3d 77, 136 (Miss. 2018)
(quoting Conners v. State, 92 So. 3d 676, 682 (Miss. 2012)).
“For the plain-error doctrine to apply, there must have been
an error that resulted in a manifest miscarriage of justice or
seriously affects the fairness, integrity or public reputation of
judicial proceedings.” Id. Here, there was no error at all—let
alone one that resulted in a manifest miscarriage of justice.
¶105. In Bullcoming, the Supreme Court was presented with
a specific question:

whether the Confrontation Clause
permits the prosecution to introduce a
forensic laboratory report containing
a testimonial certification—made for
the purpose of proving a particular
fact—through the in-court testimony
of a scientist who did not sign the
certification or perform or observe the
test reported in the certification.

Bullcoming, 564 U.S. at 652, 131 S.Ct. 2705 (emphasis
added). The plurality answered this question by holding

“that surrogate testimony of that order does not meet the
constitutional requirement.” Id.
¶106. But this Court is not presented with the same question.
The State did not admit Dr. McGarry's autopsy report
through Dr. LeVaughn. So Bullcoming's specific concern of
“surrogate testimony” is not at issue. Instead, Dr. LeVaughn
was admitted as an expert in pathology. And he gave
his independent expert opinion that JT had been sexually
assaulted before she died and that she died by strangulation.
As Garcia points out, Dr. LeVaughn did rely in part on Dr.
McGarry's autopsy report and Officer Koon's autopsy photos
to form his expert opinion. But this fact does not place his
testimony in the Bullcoming surrogate-testimony category.
¶107. As Justice Sotomayor noted in her special concurrence,
Bullcoming was “not a case in which an expert witness
was asked for his independent opinion about underlying
testimonial reports that were not themselves admitted into
evidence.” Id. at 673, 131 S. Ct. 2705, 2710 (Sotomayor,
J., concurring). “We would face a different question,” she
observed, “if asked to determine the constitutionality of
allowing an expert witness to discuss others’ testimonial
statements if the testimonial statements were not themselves
admitted as evidence.” Id. (Sotomayor, J., concurring)).
¶108. The Supreme Court faced this different question in
Williams v. Illinois, 567 U.S. 50, 67, 132 S. Ct. 2221, 2233,
183 L. Ed. 2d 89 (2012). And a plurality concluded expert
testimony of this nature does not violate the Confrontation
Clause because the out-of-court statements on which the
expert relies are not being offered to prove the truth of
the matter asserted. Rather, they explain the assumptions on
which the opinion rests. Id. at 57-58, 132 S. Ct. 2221, 2233
(Justice Alito authored the judgment, joined by Chief Justice
Roberts and Justices Kennedy and *977 Breyer. Justice
Thomas concurred in the judgment.). A majority of this Court
has similarly agreed that an expert pathologist called to give
her independent opinion as to cause of death does not violate
Bullcoming's surrogate-testimony prohibition. Christian v.
State, 207 So. 3d 1207, 1225 (Miss. 2016) (Justice Maxwell
specially concurred, joined by Chief Justice Waller, Presiding
Justice Randolph, and Justices Lamar, Coleman, and Beam.).
¶109. Thus, Garcia's Bullcoming argument lacks merit. And
the trial judge did not plainly err by admitting Dr. LeVaughn's
expert testimony.
IV. RECUSAL

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20

Julio Garcia v. State, 300 So.3d 945 (2020)

Issue 5: Once Garcia waived his right to a
jury at sentencing, should the trial judge have
recused sua sponte based on either her presentencing exposure to information not ordinarily
presented to the jury or her personal views on the
death penalty and Garcia's mitigation theory?
¶110. Next, Garcia argues he “was deprived of a fair
sentencing tribunal because the judge's pretrial exposure
to confidential information that would ordinarily not be
known to a sentencing factfinder, and her self-admitted
predispositions and intention to consider extra-record matters
disqualified her from being the trier of fact.” Essentially,
Garcia characterizes the trial judge's warnings to Garcia about
what he would be giving up if he chose bench sentencing
over jury sentencing as the judge's “free admi[ssion] ... that
she would be following her own predelictions [sic] and preexisting perception, as well as information outside the record,
in arriving at a sentencing decision.” Based on this alleged
admission, Garcia claims the trial judge should have recused,
even though Garcia concedes he never asked her to.
¶111. Because Garcia never sought the trial judge's recusal,
this claim is procedurally barred. Rice v. State, 134 So. 3d
292, 299 (Miss. 2014) (holding that a petitioner's claim of a
biased trial judge was procedurally barred on appeal due to
the failure of the petitioner to file a motion to recuse at trial).
Garcia chose to waive his right to a jury for sentencing after
the trial judge's thorough explanation of the disadvantages
and differences of judge sentencing, as opposed to jury
sentencing. Specifically, the trial judge brought to Garcia's
attention the very circumstance Garcia now claims made
his sentencing hearing fundamentally unfair—the fact the
judge had been privy to information that a jury would never
see. Aware of this reality, Garcia chose to forego his right
to jury sentencing. So he cannot now craft those warnings
into a claim that the trial judge's acting as sentencer was
fundamentally unfair.
¶112. Further, his complaint that the judge should have
recused sua sponte based on her own admitted impartiality
or inability to be fair has no merit. This Court recognizes
that “trial judges are confronted daily with evidence that
would tend to make defendants appear more culpable than
not. We presume that our trial judges are aptly equipped to
handle these issues and apply the law without fear of undue
prejudice.” Scott v. State, 8 So. 3d 855, 860 (Miss. 2008). The
transcript of the January 17, 2017 waiver-of-jury-sentencing

hearing speaks for itself. Nowhere does the judge insist she
would follow her own predispositions or base her decision
on information outside the record. Instead, the trial judge
carefully explained her background and that she was privy to
information and experiences that a jury would not possess.
She also gave Garcia multiple opportunities to withdraw his
motion to waive jury sentencing after consulting with counsel.
So, despite Garcia's attempt *978 to mischaracterize the
judge's words and actions, the judge's January 17, 2017
conversation with Garcia leaves no doubt about the validity
of the presumption that Judge Dodson, “sworn to administer
impartial justice, [wa]s qualified and unbiased.” Jones v.
State, 841 So. 2d 115, 135 (Miss. 2003).
¶113. In addition to the January 17, 2017 hearing, Garcia
points to the trial judge's comment to Dr. Storer at the
November 22, 2016 competency hearing that she “would
rather have the death penalty than a life without for several
reasons[,] [o]ne of which is that I would have my own cell
where no one else would be and my own things that no
one else would bother.” Garcia claims this is evidence of
a predisposition toward the death penalty that might have
impacted her sentencing decision.
¶114. But again, Garcia never sought to have the trial judge
recuse based on this statement, which was made months
before he decided to waive jury sentencing. So again this
issue is procedurally barred. Rice, 134 So. 3d at 299. Further,
this one comment taken out of context is not evidence that
the judge was so biased in favor of the death penalty that
she should have recused sua sponte. Instead, a fuller reading
of the record belies Garcia's accusation that the judge was
biased. At the end of the November 22, 2016 hearing, the
judge explained to Garcia that her comment—which was
made in the context of whether it was irrational to prefer
having one's own room on death row—was merely part of
an academic exercise and was by no means intended to sway
Garcia one way or another. Moreover, during the January
17, 2017 hearing, the judge explained to Garcia that, in her
previous roles of prosecutor and defense attorney, she had
argued for and against the death penalty. Before she accepted
Garcia's waiver of jury sentencing, the judge questioned
Garcia as to whether he believed, “if the proof is there that
[she] would have any hesitation at all in imposing the death
penalty” and “if the proof is not there that [she] would have
any hesitation at all in imposing life without parole.” And she
only accepted his waiver of a jury after Garcia assured her he
was “not hedging [his] bets here thinking [the judge] would
lean one way or the other[.]” Instead, Garcia stated that he

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21

Julio Garcia v. State, 300 So.3d 945 (2020)

understood that the judge would make a sentencing decision
just as a jury would.
¶115. Finally, Garcia asserts the sentencing order revealed
the trial judge's “disqualifying views.” Specifically, he alleges
that the trial judge categorically rejected the mitigation
evidence presented by Dr. Storer. But the order shows the
judge did consider Dr. Storer's mitigation testimony. The
order also shows she properly considered his testimony in the
context of mitigation and did not, as Garcia claims on appeal,
use this mental-health evidence offered in mitigation as an
aggravating factor justifying the death penalty.
¶116. “In determining whether a judge should have recused
h[er]self, the reviewing court must consider the trial as a
whole and examine every ruling to determine if those rulings
were prejudicial to the complaining party.” Jones, 841 So.
2d at 135 (citing Hunter v. State, 684 So. 2d 625, 630-31
(Miss. 1996)). Reviewing the record as a whole, there is
no evidence to support Garcia's contention that, despite not
moving for the trial judge's recusal, the trial judge still should
have disqualified herself sua sponte based on personal bias or
an inability to be impartial.

So. 3d at 149-151 (rejecting the specific arguments that
the failure to include mens rea factors or aggravating
circumstances in the indictment renders the death sentence
unconstitutional, that Mississippi's statutory death penalty
scheme is unconstitutional for piecemeal reasons, and
that Mississippi's capital statutory scheme permitting
the imposition of a death sentence violates the Eighth
Amendment in toto); Evans, 226 So. 3d at 36-40 (rejecting
the specific arguments that use of the same crime to
capitalize the homicide and as an aggravator violated
the Eighth Amendment, that Mississippi's death-penalty
scheme is generally unconstitutional, that the failure to
include aggravating circumstances in the indictment renders
the sentence unconstitutional, and that Mississippi's deathpenalty scheme is unconstitutional for additional reasons).
The one exception is Garcia's argument that this Court should
revisit the constitutionality of the death penalty based on
Justice Breyer's dissent from the denial of certiorari in Jordan
v. Mississippi, ––– U.S. ––––, 138 S. Ct. 2567, 2569-70, 201
L. Ed. 2d 1104 (2018) (Breyer, J., dissenting from the denial
of certiorari).

¶117. In his sixth issue on appeal, Garcia argues the
trial judge erred by *979 denying his pretrial motion to
declare Mississippi's entire death-penalty statutory scheme
unconstitutional. The trial judge rejected Garcia's motion,
finding this Court's decisions have consistently found “that
the current death penalty statutes are constitutional and that
in fact the imposition of the death penalty as that process is
outlined in our statutes and our case law is constitutional.”
On appeal, Garcia concedes the law supports the trial judge's
ruling. He “acknowledges that majorities of neither this Court
nor the United States Supreme Court have yet adopted the
positions he takes here[.]” Yet he asserts his “positions are
legally meritorious and warrant revisiting and abandoning
any precedent inconsistent with them.”

¶119. In his dissent, Justice Breyer expressed concern over
what he views as the “geographic arbitrariness” of the
imposition of the death penalty. Id. at 2570. Justice Breyer
observed how “[d]eath sentences, while declining in number,
have become increasingly concentrated in an ever-smaller
number of counties”—the Second Circuit Court District of
Mississippi being one of those areas of concentration. Id.
at 2569. And Justice Breyer repeated his concern that two
other capital defendants may have been sentenced to death,
not because their crimes reflect the “worst of the worst” but
because they committed those crimes in the Second Circuit
Court District, which is where Garcia also committed his
capital crime. Id. at 2570; see also Reed v. Louisiana, –––
U.S. ––––, 137 S. Ct. 787, 197 L. Ed. 2d 258 (2017) (Breyer,
J. dissenting from denial of certiorari) (arguing sentences
originating from Caddo Parish, Louisiana, are geographically
arbitrary); Tucker v. Louisiana, ––– U.S. ––––, 136 S. Ct.
1801, 195 L. Ed. 2d 774 (2016) (Breyer, J., dissenting from
denial of certiorari) (same); Glossip v. Gross, 576 U.S. 863,
135 S. Ct. 2726, 2761, 192 L. Ed. 2d 761 (2015) (Breyer,
J., dissenting) (asserting that geographical arbitrariness is
national in scope).

¶118. In addition to not being supported by the law,
the same arguments Garcia asserts against the death
penalty were advanced and rejected in two prior deathpenalty appeals before the Court. See Ambrose, 254

¶120. In his brief, Garcia presents statistical data to support
Justice Breyer's position. But beyond Justice Breyer's dissent
to a denial of certiorari, Garcia presents no law supporting
his argument that the geographical concentration of the

V. DEATH PENALTY
Issue 6: Was the death penalty imposed on Garcia
in violation of the United States Constitution?

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

Julio Garcia v. State, 300 So.3d 945 (2020)

imposition of the death penalty renders the death sentences
imposed in areas like the Second Circuit Court District of
Mississippi arbitrary and thereby unconstitutional. Justice
*980 Breyer pitched his geographical arbitrariness argument
in his dissent in Glossip and was joined by just one other
justice. Glossip, 135 S. Ct. at 2761 (Breyer, J., dissenting).
The Jordan denial-of-certiorari dissent was at least the third
time since Glossip that Justice Breyer has advanced his
geographical-arbitrariness argument to no avail. Jordan, 138
S. Ct. at 2569-70; Reed, 137 S. Ct. 787; Tucker, 136 S. Ct.
1801. And Garcia cites no other state or federal courts that
have ruled the death penalty unconstitutional based on the fact
the death penalty has been imposed in higher concentration in
certain geographical areas, such as the Second Circuit Court
District of Mississippi.
¶121. Because Garcia provides no legal support for this
argument that the trial judge erred by denying his pretrial
motion to declare the death penalty unconstitutional on its
face, we find no reversible error.

Issue 7: Is Garcia's death sentence
constitutionally and statutorily disproportionate?
¶122. In his next issue, Garcia turns from a facial to an
as-applied challenge of his death sentence. He argues that,
because he suffers from anxiety disorder, which he describes
as a “severe mental illness,” 21 imposing the death penalty on
him is just as categorically disproportionate as imposing the
death penalty on a juvenile or someone who is intellectually
disabled. See Roper v. Simmons, 543 U.S. 551, 125 S. Ct.
1183, 161 L. Ed. 2d 1 (2005) (holding that execution of
individuals who were under eighteen years of age at time of
their capital crimes is prohibited by the Eighth Amendment);
Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242, 153 L.
Ed. 2d 335 (2002) (holding that execution of intellectually
disabled criminals is prohibited by the Eighth Amendment).
But the argument that an anxiety disorder exempts individuals
from the death penalty was rejected by a majority of this
Court in Dickerson v. State, 175 So. 3d 8, 17-18 (Miss.
2015). As does Garcia, the defendant in Dickerson “liken[ed]
the mentally ill to the mentally retarded and to juveniles,
who have ‘diminished personal culpability,’ and who are
constitutionally ineligible for the death penalty ....” Id. at 17
(citing Atkins, 536 U.S. 304, 122 S.Ct. 2242; Roper, 543 U.S.
551, 125 S.Ct. 1183). And he asked this Court to hold that
mentally ill defendants are exempt from the death penalty. Id.

21

We note that the record does not support Garcia's
argument that he suffers from a severe mental
illness. His own expert, Dr. Storer, testified that
Garcia's anxiety disorder, while a mental illness,
was “not a severe and persistent mental illness of
the type that would alter someone's perception of
reality.”

¶123. In response, this Court looked to the Fifth Circuit, which
has repeatedly rejected the argument that suffering from a
mental illness is the same as being intellectually disabled.
Id. at 18 (citing Ripkowski v. Thaler, 438 Fed. Appx. 296,
303 (5th Cir. 2011); In re Neville, 440 F.3d 220, 221 (5th
Cir. 2006); In re Woods, 155 Fed. Appx. 132, 136 (5th Cir.
2005)). More important, “the [United States] Supreme Court
has never held that mental illness removes a defendant from
the class of persons who are constitutionally eligible for a
death sentence.” Id. (quoting Ripkowski, 438 Fed. Appx. at
303). This Court has held that it could not “take the Atkins
opinion—which was so specific to mental retardation that the
Court cited and discussed the clinical definition of mental
retardation—and apply it to all other mental disorders.” Id.
“To do so would be no different than taking Roper and
expanding it to preclude execution of criminals under age
twenty-one, rather than *981 age eighteen as the Supreme
Court explicitly held.” Id.
¶124. Garcia never argued to the trial court—let alone
proved—he is intellectually disabled. In fact, Dr. Storer
testified “Garcia has no deficits whatsoever regarding his
intellectual functioning.” See id. at 24 (defining intellectual
disability as including “significantly subaverage intellectual
functioning”). And because he was twenty-nine years old
when he committed his capital crime, his reliance on Atkins
and Roper is misplaced.
¶125. For the same reasons articulated in Dickerson, we reject
Garcia's argument that, based on his anxiety disorder, his
death sentence in constitutionally disproportionate.
VI. CUMULATIVE ERROR
Issue 8: Did the trial judge commit errors, in themselves
harmless, that cumulatively require reversal?
¶126. As his final issue, Garcia argues cumulative error. But
a prerequisite of cumulative error is error. The cumulativeerror doctrine permits this Court, “[u]pon appellate review
of cases in which [it] find[s] harmless error or any error that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23

Julio Garcia v. State, 300 So.3d 945 (2020)

is not specifically found to be reversible in and of itself,” to
reverse when “the cumulative effect of all errors committed
during the trial deprived the defendant of a fundamentally fair
and impartial trial.” Moffett v. State, 49 So. 3d 1073, 1116
(Miss. 2010) (quoting Byrom v. State, 863 So. 2d 836, 847
(Miss. 2003)). Garcia has failed to demonstrate any errors
occurred during his sentencing. Therefore, the cumulativeerror doctrine does not apply.

LeVaughn testified the sexual assault would have been painful
and traumatic for the five-year-old JT. Dr. LeVaughn also
opined that, based on the scratch marks on her neck, JT tried
to free herself from the sock-based noose around her neck as
she was strangled. So the evidence clearly supports the judge's
finding of both statutory aggravating circumstances.

VII. STATUTORY PROPORTIONALITY REVIEW
¶127. As a final matter, this Court must review the
proportionality of Garcia's death sentence. Miss. Code Ann.
§ 99-19-105 (Rev. 2015).

Ann. § 99-19-105(3)(c). 22 When faced with the capital
murder of a young victim committed during the course of
sexual battery, this Court has repeatedly and consistently held
that the death penalty is not disproportionate. E.g., Loden
v. State, 971 So. 2d 548, 571 (Miss. 2007) (holding the
death penalty was not disproportionate for capital murder
committed during the commission of kidnaping and sexual
battery of a sixteen-year-old); Havard v. State, 928 So. 2d
771, 804 (Miss. 2006) (holding the death penalty was not
disproportionate for capital murder committed during the
commission of a sexual battery of a six-month-old infant);
Evans v. State, 725 So. 2d 613, 708 (Miss. 1997) (holding
the death penalty was not disproportionate for capital murder
committed during the commission of sexual battery of a tenyear-old); Walker v. State, 671 So. 2d 581, 631 (Miss. 1995)
(“find[ing] that a thorough consideration of Walker, his crime
[of capital murder during the commission of sexual battery of
teenager] and the sentence imposed in this case, as compared
to ... all other death penalty cases, indicates the death penalty
is proportionate”).

¶128. First, this Court must ask whether the sentence of death
was imposed under the influence of passion, prejudice or
any other arbitrary factor. Miss. Code Ann. § 99-19-105(3)
(a). We have already addressed in Section IV of this opinion
Garcia's argument that the trial judge should have recused as
sentencer based on allegedly admitted improper influences
on her sentencing decision. For the same reasons, we find
Garcia's sentence was not influenced by passion, prejudice,
or any other arbitrary factor.
¶129. Second, this Court must ask if the evidence support
the judge's finding of statutory aggravating circumstances.
Miss. Code Ann. § 99-19-105(3)(b). The judge found two
aggravating circumstances—(1) Garcia killed JT during the
commission of a sexual battery and (2) JT's murder was
especially heinous, atrocious, and cruel. Miss. Code Ann.
§ 99-19-101(5)(d); Miss. Code Ann. § 99-19-101(5)(i). The
record supports both findings. Garcia admitted under oath
that he sexually assaulted five-year-old JT by inserting his
penis in her anus. He also told the court that he thought she
had died while he was raping her but only later realized she
was merely unconscious. While Garcia claimed that JT had
already been bound by the socks when he arrived at the trailer,
Garcia admitted he was the one who decided to hang JT by her
neck from the bathroom window. He did this so he could rinse
his semen off her. He then left her half-naked body hanging
from that window. In addition to these facts, other evidence
demonstrated the especially heinous, atrocious, and cruel
nature of Garcia's crime. In the days leading up to the crime,
Garcia had conducted internet searches of the pornographic
depiction of kidnaping and raping of young girls. If he was not
the one who in fact *982 kidnaped JT, he did admittedly rape
her when presented with her small body, bound face down
in a chair in a filthy trailer. An FBI agent later described it
as the most disgusting crime scene he had ever worked. Dr.

¶130. Finally, we must ask if the sentence of death is excessive
or disproportionate to the penalty imposed in similar cases,
considering both the crime and the defendant. Miss. Code

22

Because neither aggravating circumstance was
found to be invalid, this Court does not have
to address “whether the remaining aggravating
circumstances are outweighed by the mitigating
circumstances or whether the inclusion of any
invalid circumstance was harmless error, or both.”
Miss. Code Ann. § 99-19-105(3)(d).

Conclusion
¶131. Garcia was competent to waive his right to a jury at
sentencing. This waiver included waiving his right to appeal
his motion to change venue. Still, we additionally find the trial
judge's denial of this motion was not an abuse of discretion.
At the sentencing hearing, the trial judge did not err in her
evidentiary rulings, did not improperly consider non-record
evidence, and was not disqualified by any personal bias.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24

Julio Garcia v. State, 300 So.3d 945 (2020)

Her decision that the aggravating factors outweighed the
mitigating circumstances is supported by the record. And
the sentence imposed—death—is proportionate compared to
other similar cases. Therefore, we affirm Garcia's sentence.

the mock jury in this case was made up of thirty jurors, and it
is unclear from which district they came. For trial, the court
planned on creating a special jury venire by sending out six
hundred juror summonses. Clearly, the dynamics of the two
groups would likely be vastly different.

¶132. AFFIRMED.
¶135. However, the trial court in this case did conduct a
RANDOLPH, C.J., COLEMAN, BEAM, CHAMBERLIN,
ISHEE AND GRIFFIS, JJ., CONCUR. KING, P.J.,
CONCURS IN PART AND IN RESULT WITH SEPARATE
WRITTEN OPINION JOINED BY KITCHENS, P.J.
KITCHENS, P.J., JOINS THIS OPINION.
KING, PRESIDING JUSTICE, CONCURRING IN PART
AND IN RESULT:
¶133. I disagree with the propriety of using a mock jury in
this, or any, criminal case to determine whether a change of
venue is warranted. However, because *983 Garcia waived
this issue, any error in using a mock jury is not reversible.
¶134. “Upon filing an application for change of venue
supported by two affidavits affirming the defendant's inability
to receive a fair trial, there arises a presumption that an
impartial jury cannot be obtained.” Welde v. State, 3 So.
3d 113, 118 (Miss. 2009). The State may then rebut that
presumption “by proving from voir dire that the trial court
impaneled an impartial jury.” Id. (internal quotation marks
omitted) (quoting Holland v. State, 705 So. 2d 307, 336
(Miss. 1997)). The State can use voir dire of the jury venire
for the specific trial to rebut the presumption because “[i]t
is fundamental and essential to our form of government that
all persons charged with a crime have the right to a fair trial
by an impartial jury.” White v. State, 495 So. 2d 1346, 1348
(Miss. 1986). In sum, the State can rebut the presumption
with voir dire of the actual jury venire for the defendant's
criminal trial, because the defendant is entitled to have a fair
and impartial trial jury. A mock jury does not suffice, as
that jury will not be the same jury that tries the defendant.
It should never be a substitute for ensuring the impartiality
of the impaneled jury for the defendant's trial. Moreover, it
should never be an excuse for a trial court to make a lessthan-complete venue analysis; in other words, a trial court
should not simply rely on its assessment of the mock jury
and fail to complete a thorough venue analysis. Additionally,
I especially disagree with the use of a mock jury when the
defendant objects to its use. The juror sample used in a mock
jury may be dissimilar to the jury venire for trial. For example,

thorough venue analysis in this case. 23 Furthermore, the trial
court gave Garcia the option to renew the motion to change
venue once his actual jury venire was present, and Garcia
waived this issue. Garcia agreed to the use of the mock jury
and failed to meaningfully object to the use of the mock jury
on appeal, thus waiving the issue. Even if this Court were
to examine this issue under plain error review, considering
the heightened standard we apply to death penalty cases, this
issue would be without merit. The trial judge repeatedly told
Garcia and his defense counsel that Garcia could renew his
motion to change venue once the jury venire was present. 24
Thus, Garcia could have renewed his motion to ensure that his
trial jury was impartial once his case had progressed to that
stage of the proceedings. 25
23

The majority outlines the trial court's analysis on
these issues.

24

At one of the hearings on the motion to change
venue, the trial court stated, “And of course ...
[denying the motion to change venue] does not
prohibit the defense from raising it again should
circumstances change or should we stay here, bring
in a venire and it turns out that too many folks on
the venire do have fixed opinions.”
At a separate hearing on various matters, the trial
court stated that “the court has already ruled on the
motion for change of venue. But as the parties well
know if the situation changes, the defense is, of
course, free to raise that again.”

25

I disagree with the majority that Garcia waived his
appellate challenge to the venue issue simply by
pleading guilty and waiving his sentencing jury.
However, the majority nonetheless analyzes the
venue issue on the merits, and I agree with the
majority's conclusion that the trial court did not
err by denying the motion to change venue. The
problematic nature of the venue issue relates to the
use of the mock jury, and Garcia waived a specific
challenge to the use of the mock jury by agreeing to
it, by failing to renew his motion to change venue,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25

Julio Garcia v. State, 300 So.3d 945 (2020)

and by failing to meaningfully raise the issue of the
mock jury on appeal.”
*984 ¶136. I caution courts against using mock juries in
motions for change of venue, because doing so is not a
substitute for ensuring an impartial trial jury. The impartiality
of the trial jury, the impartial nature of such being a
right guaranteed to defendants, can only be determined by
considering the actual trial jury venire. However, the use of
a mock jury in this case did not prevent Garcia from raising
the issue again once presented with his trial jury venire, as the
trial court specifically expressed that he could raise his motion
when faced with his venire. Further, Garcia waived the issue.
Thus, I concur in part and in result.

Bobby Batiste v. State, 121 So. 3d 808 (Miss. 2013), leave to
seek PCR granted, 184 So. 3d 290 (Miss. 2016).
Roger Lee Gillett v. State, 56 So. 3d 469 (Miss. 2010).
Moffett v. State, 49 So. 3d 1073 (Miss. 2010).
Pitchford v. State, 45 So. 3d 216 (Miss. 2010).
Goff v. State, 14 So. 3d 625 (Miss. 2009).
Wilson v. State, 21 So. 3d 572 (Miss. 2009).
Chamberlin v. State, 989 So. 2d 320 (Miss. 2008).

DEATH CASES AFFIRMED BY THIS COURT
APPENDIX

Loden v. State, 971 So. 2d 548 (Miss. 2007).
King v. State, 960 So. 2d 413 (Miss. 2007).

Abdur Rahim Ambrose v. State, 254 So. 3d 77 (Miss. 2018).

Bennett v. State, 933 So. 2d 930 (Miss. 2006).

Curtis Giovanni Flowers v. State, 240 So. 3d 1082 (Miss.
2017), rev'd and remanded, ––– U.S. ––––, 139 S. Ct. 2228,
204 L. Ed. 2d 638 (2019).

Havard v. State, 928 So. 2d 771 (Miss. 2006).

Timothy Nelson Evans v. State, 226 So. 3d 1 (Miss. 2017).

Hodges v. State, 912 So. 2d 730 (Miss. 2005).

James Cobb Hutto III v. State, 227 So. 3d 963 (Miss. 2017).

Walker v. State, 913 So. 2d 198 (Miss. 2005).

David Cox v. State, 183 So. 3d 36 (Miss. 2015).

*985 Le v. State, 913 So. 2d 913 (Miss. 2005), leave to
seek PCR denied, 967 So. 2d 627 (Miss. 2007), leave to seek
second PCR granted, 2013-DR-00327-SCT (Miss. Jan. 26,
2016).

David Dickerson v. State, 175 So. 3d 8 (Miss. 2015).

Spicer v. State, 921 So. 2d 292 (Miss. 2006).

Timothy Robert Ronk v. State, 172 So. 3d 1112 (Miss. 2015).
Brown v. State, 890 So. 2d 901 (Miss. 2004).
Curtis Giovanni Flowers v. State, 158 So. 3d 1009 (Miss.
2014), vacated, ––– U.S. ––––, 136 S. Ct. 2157, 195 L. Ed.
2d 817 (2016).

Powers v. State, 883 So. 2d 20 (Miss. 2004)
Branch v. State, 882 So. 2d 36 (Miss. 2004).

Caleb Corrothers v. State, 148 So. 3d 278 (Miss. 2014), leave
to seek PCR granted in part and denied in part, 255 So. 3d
99 (Miss. 2017).

Scott v. State, 878 So. 2d 933 (Miss. 2004).
Lynch v. State, 877 So. 2d 1254 (Miss. 2004).

Jason Lee Keller v. State, 138 So. 3d 817 (Miss. 2014), leave
to seek PCR granted in part and denied in part, 229 So. 3d
715 (Miss. 2017).

Dycus v. State, 875 So. 2d 140 (Miss. 2004).
Byrom v. State, 863 So. 2d 836 (Miss. 2003).

Leslie Galloway III v. State, 122 So. 3d 614 (Miss. 2013).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26

Julio Garcia v. State, 300 So.3d 945 (2020)

Howell v. State, 860 So. 2d 704 (Miss. 2003).

Burns v. State, 729 So. 2d 203 (Miss. 1998).

Howard v. State, 853 So. 2d 781 (Miss. 2003).

Jordan v. State, 728 So. 2d 1088 (Miss. 1998).

Walker v. State, 815 So. 2d 1209 (Miss. 2002). *following
remand.

Gray v. State, 728 So. 2d 36 (Miss. 1998).
Manning v. State, 726 So. 2d 1152 (Miss. 1998).

Bishop v. State, 812 So. 2d 934 (Miss. 2002).
Woodward v. State, 726 So. 2d 524 (Miss. 1997).
Stevens v. State, 806 So. 2d 1031 (Miss. 2002).
Grayson v. State, 806 So. 2d 241 (Miss. 2002).

Bell v. State, 725 So. 2d 836 (Miss. 1998), post-conviction
relief granted in part and denied in part, 66 So.3d 90 (Miss.
2011).

Knox v. State, 805 So. 2d 527 (Miss. 2002).
Evans v. State, 725 So. 2d 613 (Miss. 1997).
Simmons v. State, 805 So. 2d 452 (Miss. 2002).
*986 Brewer v. State, 725 So. 2d 106 (Miss. 1998).
Berry v. State, 802 So. 2d 1033 (Miss. 2001).
Crawford v. State, 716 So. 2d 1028 (Miss. 1998).
Snow v. State, 800 So. 2d 472 (Miss. 2001).
Doss v. State, 709 So. 2d 369 (Miss. 1996).
Mitchell v. State, 792 So. 2d 192 (Miss. 2001).
Underwood v. State, 708 So. 2d 18 (Miss. 1998).
Puckett v. State, 788 So. 2d 752 (Miss. 2001). * following
remand.

Holland v. State, 705 So. 2d 307 (Miss. 1997).

Goodin v. State, 787 So. 2d 639 (Miss. 2001).

Wells v. State, 698 So. 2d 497 (Miss. 1997).

Jordan v. State, 786 So. 2d 987 (Miss. 2001).

Wilcher v. State, 697 So. 2d 1087 (Miss. 1997).

Manning v. State, 765 So. 2d 516 (Miss. 2000). *following
remand.

Wiley v. State, 691 So. 2d 959 (Miss. 1997).
Brown v. State, 690 So. 2d 276 (Miss. 1996).

Eskridge v. State, 765 So. 2d 508 (Miss. 2000).
Simon v. State, 688 So. 2d 791 (Miss.1997).
McGilberry v. State, 741 So. 2d 894 (Miss. 1999).
Jackson v. State, 684 So. 2d 1213 (Miss. 1996).
Puckett v. State, 737 So. 2d 322 (Miss. 1999). *remanded for
Batson hearing.
Manning v. State, 735 So. 2d 323 (Miss. 1999). *remanded
for Batson hearing.

Williams v. State, 684 So. 2d 1179 (Miss. 1996).
Davis v. State, 684 So. 2d 643 (Miss. 1996).
Taylor v. State, 682 So. 2d. 359 (Miss. 1996).

Hughes v. State, 735 So. 2d 238 (Miss. 1999).
Brown v. State, 682 So. 2d 340 (Miss. 1996).
Turner v. State, 732 So. 2d 937 (Miss. 1999).
Blue v. State, 674 So. 2d 1184 (Miss. 1996).
Smith v. State, 729 So. 2d 1191 (Miss. 1998).
Holly v. State, 671 So. 2d 32 (Miss. 1996).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27

Julio Garcia v. State, 300 So.3d 945 (2020)

Walker v. State, 671 So. 2d 581 (Miss. 1995).

Lockett v. State, 517 So. 2d 1317 (Miss. 1987).

Russell v. State, 670 So. 2d 816 (Miss. 1995).

Faraga v. State, 514 So. 2d 295 (Miss. 1987).

Ballenger v. State, 667 So. 2d 1242 (Miss. 1995).

*Jones v. State, 517 So. 2d 1295 (Miss. 1987); Jones v.
Mississippi, 487 U.S. 1230, 108 S.Ct. 2891, 101 L.Ed.2d 925
(1988) (vacating and remanding); Jones v. State, 602 So. 2d
1170 (Miss. 1992) (remanding for new sentencing hearing).

Davis v. State, 660 So. 2d 1228 (Miss. 1995).
Carr v. State, 655 So. 2d 824 (Miss. 1995).

Wiley v. State, 484 So. 2d 339 (Miss. 1986).
Mack v. State, 650 So. 2d 1289 (Miss. 1994).
Johnson v. State, 477 So. 2d 196 (Miss. 1985).
Chase v. State, 645 So. 2d 829 (Miss. 1994).
Gray v. State, 472 So. 2d 409 (Miss. 1985).
Foster v. State, 639 So. 2d 1263 (Miss. 1994).
Cabello v. State, 471 So. 2d 332 (Miss. 1985).
Conner v. State, 632 So. 2d 1239 (Miss. 1993).
Jordan v. State, 464 So. 2d 475 (Miss. 1985).
Hansen v. State, 592 So. 2d 114 (Miss. 1991).
Wilcher v. State, 455 So. 2d 727 (Miss. 1984).
*Shell v. State, 554 So. 2d 887 (Miss. 1989); Shell v.
Mississippi, 498 U.S. 1, 111 S.Ct. 313, 112 L.Ed.2d 1 (1990)
(reversing, in part, and remanding); Shell v. State, 595 So. 2d
1323 (Miss. 1992) (remanding for new sentencing hearing).

Billiot v. State, 454 So. 2d 445 (Miss. 1984).
Stringer v. State, 454 So. 2d 468 (Miss. 1984).

Davis v. State, 551 So. 2d 165 (Miss. 1989).

Dufour v. State, 453 So. 2d 337 (Miss. 1984).

Minnick v. State, 551 So. 2d 77 (Miss. 1989).

Neal v. State, 451 So. 2d 743 (Miss. 1984).

*Pinkney v. State, 538 So. 2d 329 (Miss. 1989); Pinkney
v. Mississippi, 494 U.S. 1075, 110 S.Ct. 1800, 108 L.Ed.2d
931 (1990) (vacating and remanding); Pinkney v. State, 602
So. 2d 1177 (Miss. 1992) (remanding for new sentencing
hearing).

Booker v. State, 449 So. 2d 209 (Miss. 1984).

*Clemons v. State, 535 So. 2d 1354 (Miss. 1988); Clemons
v. Mississippi, 494 U.S. 738, 110 S.Ct. 1441, 108 L.Ed.2d
725 (1990) (vacating and remanding); Clemons v. State, 593
So. 2d 1004 (Miss. 1992) (remanding for new sentencing
hearing).

Irving v. State, 441 So. 2d 846 (Miss. 1983).

Woodward v. State, 533 So. 2d 418 (Miss. 1988).

Hill v. State, 432 So. 2d 427 (Miss. 1983).

Nixon v. State, 533 So. 2d 1078 (Miss. 1987).

Pruett v. State, 431 So. 2d 1101 (Miss. 1983).

*987 Cole v. State, 525 So. 2d 365 (Miss. 1987).

Gilliard v. State, 428 So. 2d 576 (Miss. 1983).

Lockett v. State, 517 So. 2d 1346 (Miss. 1987).

Evans v. State, 422 So. 2d 737 (Miss. 1982).

Wilcher v. State, 448 So. 2d 927 (Miss. 1984).
Caldwell v. State, 443 So. 2d 806 (Miss. 1983).

Tokman v. State, 435 So. 2d 664 (Miss. 1983).
Leatherwood v. State, 435 So. 2d 645 (Miss. 1983).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28

Julio Garcia v. State, 300 So.3d 945 (2020)

King v. State, 421 So. 2d 1009 (Miss. 1982).

Erik Wayne Hollie v. State, 174 So. 3d 824 (Miss. 2015).

Wheat v. State, 420 So. 2d 229 (Miss. 1982).

Manning v. State, 158 So. 3d 302 (Miss. 2015) (reversing
denial of post-conviction relief).

Smith v. State, 419 So. 2d 563 (Miss. 1982).
Johnson v. State, 416 So. 2d 383 (Miss.1982).

Byrom v. State, 2014-DR-00230-SCT (Miss. April 3, 2014)
(order).

Edwards v. State, 413 So. 2d 1007 (Miss. 1982).

Ross v. State, 954 So. 2d 968 (Miss. 2007).

Bullock v. State, 391 So. 2d 601 (Miss. 1980).

Flowers v. State, 947 So. 2d 910 (Miss. 2007).

Reddix v. State, 381 So. 2d 999 (Miss. 1980).

Flowers v. State, 842 So. 2d 531 (Miss. 2003).

Jones v. State, 381 So. 2d 983 (Miss. 1980).

Randall v. State, 806 So. 2d 185 (Miss. 2002).

Culberson v. State, 379 So. 2d 499 (Miss. 1979).

Flowers v. State, 773 So. 2d 309 (Miss. 2000).

Gray v. State, 375 So. 2d 994 (Miss. 1979).

Edwards v. State, 737 So. 2d 275 (Miss. 1999).

Jordan v. State, 365 So. 2d 1198 (Miss. 1978).

Smith v. State, 733 So. 2d 793 (Miss. 1999).

Voyles v. State, 362 So. 2d 1236 (Miss. 1978).

Porter v. State, 732 So. 2d 899 (Miss. 1999).

*988 Irving v. State, 361 So. 2d 1360 (Miss. 1978).

Kolberg v. State, 704 So. 2d 1307 (Miss. 1997).

Washington v. State, 361 So. 2d 61 (Miss. 1978).

Snelson v. State, 704 So. 2d 452 (Miss. 1997).

Bell v. State, 360 So. 2d 1206 (Miss. 1978).

Fuselier v. State, 702 So. 2d 388 (Miss. 1997).

*Case was originally affirmed in this Court but on remand
from U. S. Supreme Court, case was remanded by this Court
for a new sentencing hearing.

Howard v. State, 701 So. 2d 274 (Miss. 1997).
Lester v. State, 692 So. 2d 755 (Miss. 1997).
Hunter v. State, 684 So. 2d 625 (Miss. 1996).

DEATH CASES REVERSED AS TO GUILT
PHASE AND SENTENCING PHASE

Lanier v. State, 684 So. 2d 93 (Miss. 1996).

Curtis Giovanni Flowers v. State, 287 So. 3d 905 (Miss.
2019), on remand from ––– U.S. ––––, 139 S. Ct. 2228, 204
L. Ed. 2d 638 (2019).

Giles v. State, 650 So. 2d 846 (Miss. 1995).

Justin Barrett Blakeney v. State, 236 So. 3d 11 (Miss. 2017).

Harrison v. State, 635 So. 2d 894 (Miss. 1994).

Sherwood Brown v. State, 277 So.3d 1288 (Miss. 2017)
(ordergranting post-conviction relief and vacating underlying
convictions and sentences and remanding to the DeSoto
County Circuit Court for a new trial).

Butler v. State, 608 So. 2d 314 (Miss. 1992).

Duplantis v. State, 644 So. 2d 1235 (Miss. 1994).

Jenkins v. State, 607 So. 2d 1171 (Miss. 1992).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29

Julio Garcia v. State, 300 So.3d 945 (2020)

Abram v. State, 606 So. 2d 1015 (Miss. 1992).

Bell v. State, 160 So. 3d 188 (Miss. 2015).

Balfour v. State, 598 So. 2d 731 (Miss. 1992).

Reddix v. State, 547 So. 2d 792 (Miss. 1989).

Griffin v. State, 557 So. 2d 542 (Miss. 1990).

Wheeler v. State, 536 So. 2d 1341 (Miss. 1988).

Bevill v. State, 556 So. 2d 699 (Miss. 1990).

White v. State, 532 So. 2d 1207 (Miss. 1988).

West v. State, 553 So. 2d 8 (Miss. 1989).

Bullock v. State, 525 So. 2d 764 (Miss. 1987).

*989 Leatherwood v. State, 548 So. 2d 389 (Miss. 1989).

Edwards v. State, 441 So. 2d 84 (Miss. 1983).

Mease v. State, 539 So. 2d 1324 (Miss. 1989).

Dycus v. State, 440 So. 2d 246 (Miss. 1983).

Houston v. State, 531 So. 2d 598 (Miss. 1988).

Coleman v. State, 378 So. 2d 640 (Miss. 1979).

West v. State, 519 So. 2d 418 (Miss. 1988).
Davis v. State, 512 So. 2d 1291 (Miss. 1987).
Williamson v. State, 512 So. 2d 868 (Miss. 1987).
Foster v. State, 508 So. 2d 1111 (Miss. 1987).
Smith v. State, 499 So. 2d 750 (Miss. 1986).
West v. State, 485 So. 2d 681 (Miss. 1985).
Fisher v. State, 481 So. 2d 203 (Miss. 1985).
Johnson v. State, 476 So. 2d 1195 (Miss. 1985).
Fuselier v. State, 468 So. 2d 45 (Miss. 1985).
West v. State, 463 So. 2d 1048 (Miss. 1985).
Jones v. State, 461 So. 2d 686 (Miss. 1984).
Moffett v. State, 456 So. 2d 714 (Miss. 1984).
Lanier v. State, 450 So. 2d 69 (Miss. 1984).
Laney v. State, 421 So. 2d 1216 (Miss. 1982).

DEATH CASES REVERSED AS TO
PUNISHMENT AND REMANDED FOR
RESENTENCING TO LIFE IMPRISONMENT

DEATH CASES REVERSED AS TO
PUNISHMENT AND REMANDED FOR A
NEW TRIAL ON SENTENCING PHASE ONLY
Fulgham v. State, 46 So. 3d 315 (Miss. 2010).
Rubenstein v. State, 941 So. 2d 735 (Miss. 2006).
King v. State, 784 So. 2d 884 (Miss. 2001).
Walker v. State, 740 So. 2d 873 (Miss. 1999).
Watts v. State, 733 So. 2d 214 (Miss. 1999).
West v. State, 725 So. 2d 872 (Miss. 1998).
Smith v. State, 724 So. 2d 280 (Miss. 1998).
Berry v. State, 703 So. 2d 269 (Miss. 1997).
*990 Booker v. State, 699 So. 2d 132 (Miss. 1997).
Taylor v. State, 672 So. 2d 1246 (Miss. 1996).
*Shell v. State, 554 So. 2d 887 (Miss. 1989); Shell v.
Mississippi, 498 U.S. 1, 111 S.Ct. 313, 112 L.Ed.2d 1 (1990)
(reversing, in part, and remanding); Shell v. State 595 So. 2d
1323 (Miss. 1992) (remanding for new sentencing hearing).
*Pinkney v. State, 538 So. 2d 329 (Miss. 1989); Pinkney
v. Mississippi, 494 U.S. 1075, 110 S.Ct. 1800, 108 L.Ed.2d
931 (1990) (vacating and remanding); Pinkney v. State, 602

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30

Julio Garcia v. State, 300 So.3d 945 (2020)

So. 2d 1177 (Miss. 1992) (remanding for new sentencing
hearing).
*Clemons v. State, 535 So. 2d 1354 (Miss. 1988); Clemons
v. Mississippi, 494 U.S. 738, 110 S.Ct. 1441, 108 L.Ed.2d
725 (1990) (vacating and remanding); Clemons v. State, 593
So. 2d 1004 (Miss. 1992) (remanding for new sentencing
hearing).
*Jones v. State, 517 So. 2d 1295 (Miss. 1987); Jones v.
Mississippi, 487 U.S. 1230, 108 S.Ct. 2891, 101 L.Ed.2d 925
(1988) (vacating and remanding); Jones v. State, 602 So. 2d
1170 (Miss. 1992) (remanding for new sentencing hearing).
Russell v. State, 607 So. 2d 1107 (Miss. 1992).
Holland v. State, 587 So. 2d 848 (Miss. 1991).
Willie v. State, 585 So. 2d 660 (Miss. 1991).
Ladner v. State, 584 So. 2d 743 (Miss. 1991).
Mackbee v. State, 575 So. 2d 16 (Miss. 1990).
Berry v. State, 575 So. 2d 1 (Miss. 1990).

Williams v. State, 544 So. 2d 782 (Miss. 1989), sentence aff'd,
684 So. 2d 1179 (1996).
Lanier v. State, 533 So. 2d 473 (Miss. 1988).
Stringer v. State, 500 So. 2d 928 (Miss. 1986).
Pinkton v. State, 481 So. 2d 306 (Miss. 1985).
Mhoon v. State, 464 So. 2d 77 (Miss. 1985).
Cannaday v. State, 455 So. 2d 713 (Miss. 1984).
Wiley v. State, 449 So. 2d 756 (Miss. 1984), aff'd, Wiley v.
State, 484 So. 2d 339 (Miss. 1986), cert. denied, 486 U.S.
1036, 108 S.Ct. 2024, 100 L.Ed.2d 610 (1988), resentencing
ordered, 635 So. 2d 802 (Miss. 1993), following writ of
habeas corpus issued sub nom. Wiley v. Puckett, 969 F.2d 86,
105-106 (5th Cir. 1992), resentencing affirmed, 691 So. 2d
959 (Miss. 1997).
Williams v. State, 445 So. 2d 798 (Miss. 1984) (case was
originally affirmed in this Court but on remand from U. S.
Supreme Court, case was remanded by this Court for a new
sentencing hearing).

Turner v. State, 573 So. 2d 657 (Miss. 1990).
State v. Tokman, 564 So. 2d 1339 (Miss. 1990).
Johnson v. State, 547 So. 2d 59 (Miss. 1989).
End of Document

All Citations
300 So.3d 945

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31

APPENDIX B
to
Petition for Writ of Certiorari
Unpublished order denying rehearing dated September 10,
2020.

Electronic Document

Sep-10-2020 13:29:38.

2017-DP-00504-SCT

Pages: 1

Supreme Court of Mississippi
Court of Appeals of the State of Mississippi
Office of the Clerk
(Street Address)
450 High Street
Jackson, Mississippi 39201-1082

D. Jeremy Whitmire
Post Office Box 249
Jackson, Mississippi 39205-0249
Telephone: (601) 359-3694
Facsimile: (601) 359-2407

e-mail:sctclerk@courts.ms.gov
September 10, 2020

This is to advise you that the Mississippi Supreme Court rendered the following decision
on the 10th day of September, 2020.
Supreme Court Case # 2017-DP-00504-SCT
Trial Court Case # B2401-15-500
Alberto Julio Garcia a/k/a Alberto J. Garcia a/k/a Alberto Garcia v. State of Mississippi

The Motion for Rehearing filed by Appellant is denied.

* NOTICE TO CHANCERY/CIRCUIT/COUNTY COURT CLERKS *
If an original of any exhibit other than photos was sent to the Supreme Court Clerk and should
now be returned to you, please advise this office in writing immediately.

Please note: Pursuant to MRAP 45(c), amended effective July, 1, 2010, copies of opinions will not
be mailed. Any opinion rendered may be found by visiting the Court's website at:
https://courts.ms.gov, and selecting the appropriate date the opinion was rendered under the
category "Decisions."

APPENDIX C
to
Petition for Writ of Certiorari
Unpublished mandate issued September 17, 2020.

Electronic Document

Sep 17-2020 15:01:07

2017-DP-00504-SCT

Pages: 1

MANDATE
SUPREME COURT OF MISSISSIPPI
To the Harrison County Circuit Court 1st Judicial District - GREETINGS:
In proceedings held in the Courtroom, Carroll Gartin Justice Building, in the City of
Jackson, Mississippi, the Supreme Court of Mississippi entered a judgment as follows:

Supreme Court Case # 2017-DP-00504-SCT
Trial Court Case #B2401-15-500
Alberto Julio Garcia a/k/a Alberto J. Garcia a/k/a Alberto Garcia v. State of Mississippi

Thursday, 14th day of May, 2020
Affirmed. Harrison County taxed with costs of appeal.
Thursday, 10th day of September, 2020
The Motion for Rehearing filed by Appellant is denied.
YOU ARE COMMANDED, that execution and further proceedings as may be
appropriate forthwith be had consistent with this judgment and the Constitution and Laws of the
State of Mississippi.
I, D. Jeremy Whitmire, Clerk of the Supreme Court of Mississippi and the Court of
Appeals of the State of Mississippi, certify that the above judgment is a true and correct copy of
the original which is authorized by law to be filed and is actually on file in my office under my
custody and control.

Witness my signature and the Court's seal on September 17, 2020, A.D.

CLERK

APPENDIX D
to
Petition for Writ of Certiorari
Competency Hearing Exhibit D-1, November 17, 2016 Report of
court appointed forensic psychologist Robert Storer, Ph.D.

APPENDIX E
to
Petition for Writ of Certiorari
Transcript of Competency hearing of November 22, 2016
T. 371-411

